<html>
<title> - BREAKING DOWN BARRIERS TO BROADBAND INFRASTRUCTURE DEPLOYMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


     BREAKING DOWN BARRIERS TO BROADBAND INFRASTRUCTURE DEPLOYMENT

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2015

                               __________

                           Serial No. 114-95
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               ____________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
99-463                      WASHNGTON : 2016                     
                    
________________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>  
                  
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     8

                               Witnesses

Heather Burnett Gold, President and CEO, FTTH Council Americas...    10
    Prepared statement...........................................    13
Scott Bergmann, Vice President, Regulatory Affairs, CTIA--The 
  Wireless Association...........................................    24
    Prepared statement...........................................    26
    Answers to submitted questions...............................    81
Jeb Benedict, Vice President, Federal Regulatory Affairs and 
  Regulatory Counsel, Centurylink................................    31
    Prepared statement...........................................    33
    Answers to submitted questions...............................    84
Deb Socia, Executive Director, Next Century Cities...............    43
    Prepared statement...........................................    45

                           Submitted Material

Statement of the American Public Power Association, submitted by 
  Mrs. Blackburn.................................................    78

 
     BREAKING DOWN BARRIERS TO BROADBAND INFRASTRUCTURE DEPLOYMENT

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2015

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2123, Rayburn House Office Building, Hon. Greg Walden 
(chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Barton, 
Shimkus, Blackburn, Lance, Guthrie, Olson, Pompeo, Kinzinger, 
Bilirakis, Johnson, Long, Ellmers, Collins, Cramer, Upton (ex 
officio), Eshoo, Doyle, Welch, Clarke, Loebsack, Rush, Matsui, 
Lujan, and Pallone (ex officio).
    Staff present: Gary Andres, Staff Director; Ray Baum, 
Senior Policy Advisory for Communications and Technology; 
Rebecca Card, Assistant Press Secretary; Andy Duberstein, 
Deputy Press Secretary; Gene Fullano, Detailee to the 
Communications and Technology Subcommittee; Kelsey Guyselman, 
Counsel to the Communications and Technology Subcommittee; 
Grace Koh, Counsel to the Communications and Technology 
Subcommittee; Tim Pataki, Professional Staff Member; David 
Redl, Counsel to the Communications and Technology 
Subcommittee; Charlotte Savercool, Professional Staff 
Communications and Technology; Greg Watson, Legislative Clerk 
for Communications and Technology and Oversight and 
Investigations; Christine Brennan, Press Secretary; Jeff 
Carroll, Staff Director; David Goldman, Chief Counsel for 
Communications and Technology; Jerry Leverich, Counsel; Lori 
Maarbjerg, FCC Detailee; and Ryan Skukowski, Policy Analyst.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. We are going to call to order this subcommittee 
on Communications and Technology for our hearing on Breaking 
Down Barriers to Broadband Infrastructure Investment.
    And welcome our witnesses here today and others.
    Yesterday, this subcommittee met to discuss how the 
President's policy on applying monopoly-era Title II 
regulations on high-speed networks has affected private 
investment in broadband infrastructure. In light of what may 
happen in the marketplace, in light of how the marketplace 
works, I think it is important to look at the uncertainties and 
the barriers in the marketplace and the delays that hinder the 
deployment of communication networks and the availability of 
broadband for all Americans. These are important goals, 
regardless of the outcome of the current court battle over 
Title II.
    Today's hearing will focus on reviewing bipartisan 
legislation to accelerate the permitting processes, open up 
available infrastructure, and cut down on uncertainty and 
delay.
    There is no question that networks are racing to keep up 
with consumer demand. We know that for fact. The Cisco Virtual 
Networking Index predicts that by 2019, the Internet of Things 
will increase the load on our networks exponentially, pushing 
us toward the 2 zettabyte-per-year mark, yes, indeed, 
zettabytes. That is 12 times more data than we used in 2009. 
Streaming video, wearables, and machine-to-machine 
communication are only a few of the developments vaulting 
network use skyward. And that's just based on what we now know. 
It is impossible, of course, to predict what innovations will 
cause us to increase our data consumption by another 
exponential factor.
    We need to ensure that our federal policies allow networks 
to manage the growing tidal wave of data consumption, and this 
subcommittee has been approaching this issue from at least two 
perspectives. First, we have reviewed the availability of 
spectrum and continue to consider ways to make more spectrum 
available for commercial broadband use. Let me make clear, our 
work on spectrum is far from over, but we continue to make 
progress. And it is a big focus of our subcommittee.
    Second, we must consider ways to lower the cost of 
deployment, to make investment in infrastructure more 
attractive to network operators. And yesterday, this 
subcommittee heard from economists on the different challenges 
associated with return on incremental investment: that is, 
whether companies will invest in upgrades and expansion. And 
today, we will consider the other side of the equation, the 
sunk costs.
    We are focusing on lowering the costs of deployment by 
considering legislation that would help to streamline red tape 
in permitting and by providing access to existing 
infrastructure that would help to reduce costs by eliminating 
delay and uncertainty in deployment.
    Specifically, we will consider a bill that would require 
the government to maintain a database of federal assets. Now, 
this is a step that many in the Administration have already 
called for. This database would allow infrastructure providers 
to quickly determine efficient routes for laying fiber or 
attaching antennas. It would provide points of contact to allow 
infrastructure providers to identify their negotiating 
partners. And we will also consider how to ensure that agencies 
make broadband infrastructure permitting a priority, by 
requiring the senior real property officer of each landholding 
agency accountable for the performance of the agency in this 
respect.
    We are also considering a bill to ensure that poles owned 
by federal entities become available to broadband 
infrastructure providers at the statutorily regulated rate. 
Now, poles have been an essential input to the deployment of 
telephone and cable services. They continue to be essential 
inputs to broadband infrastructure. Stringing wire on poles can 
be much more economical than burying fiber in city streets. 
This legislation allows us to explore the possibility of 
increasing access to federally owned poles, as well as discuss 
clarifying the rates and placement of poles across the country.
    We will also review H.R. 3805. Now, that is a bill 
introduced by the ranking member Ms. Eshoo, myself, and many on 
this subcommittee are cosponsors. The Broadband Conduit 
Deployment Act is a sensible idea that many in the broadband 
industry have recommended. The bill will require States to 
evaluate the need for broadband conduit whenever they dig up 
the roads for a federal-funded project. Now, simply having that 
conduit installed in the roads already will reduce the costs of 
broadband deployment significantly.
    This subcommittee will also take on the project of 
streamlining the permitting processes for federal agencies with 
a significant control over federal lands. One of the concerns 
most frequently expressed by those seeking to deploy broadband 
infrastructure is that the permitting processes are 
inconsistent from field office to field office or from army 
base to army base. We will consider a bill to address the 
inconsistencies by requiring the Department of Interior, the 
Forest Service, and the Department of Defense to streamline and 
standardize their permitting processes, making them as 
efficient as possible for those seeking to provide broadband 
service.
    We also have a draft bill before us today that streamlines 
the agency-required reviews under the National Historic 
Preservation Act and under the National Environmental 
Protection Act. This draft bill would seek to eliminate 
duplicate Section 160 and NEPA reviews, striking a balance 
between protecting our cultural and environmental treasures and 
accelerating the pace of broadband infrastructure permitting.
    Last but not least, we will consider the good work started 
in the 112th Congress in the Spectrum Act. We required GSA to 
develop master contracts, forms, and fee schedules for the 
attachment of antennas to federal properties. We have a draft 
bill before us that makes clear that we expect agencies to use 
those master contracts, forms, and fee schedules.
    I would like to thank our witnesses today for taking the 
time to comment on the legislation and to help us understand 
how we can improve the legislation as we move on to the next 
steps. Our intent is to maintain an open and interactive 
process in drafting this legislation so that we can strike the 
right balances and arrive at the right policies for spurring 
broadband deployment.
    With that, I would recognize the gentlelady from 
California, Ms. Eshoo, for opening comments.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Yesterday, this subcommittee met to discuss how the 
President's policy on applying monopoly-era Title II 
regulations on high-speed networks has dampened private 
investment in broadband infrastructure. In light of this, I 
believe that it is more important than ever to do everything 
else we can to remove the uncertainties and delays that hinder 
the deployment of communications networks and the availability 
of broadband to all Americans. These are important goals 
regardless of the outcome of the current court battle over 
Title II. Today's hearing will focus on reviewing bipartisan 
legislation to accelerate permitting processes, open up 
available infrastructure, and cut down on uncertainty and 
delay.
    There is no question that networks are racing to keep up 
with consumer demand. The Cisco Virtual Networking Index 
predicts that by 2019, the Internet of Things will increase the 
load on our networks exponentially, pushing us toward the two 
zettabyte per year mark--that's 12 times more data than we used 
in 2009. Streaming video, wearables, and machine-to-machine 
communication are only a few of the developments vaulting 
network use skyward. And that's just based on what we know now; 
it is impossible to predict what innovations will cause us to 
increase our data consumption by another exponential factor.
    We need to ensure that our federal policies allow networks 
to manage the growing tidal wave of data consumption, and this 
subcommittee has been approaching this issue from at least two 
perspectives. First, we have reviewed the availability of 
spectrum and continue to consider ways to make more spectrum 
available for commercial broadband use. Let me be clear, our 
work on spectrum is far from over.
    Second, we must consider ways to lower the cost of 
deployment, to make investment in infrastructure more 
attractive to network operators. Yesterday, this subcommittee 
heard from economists on the different challenges associated 
with return on incremental investment--that is whether 
companies will invest in upgrades and expansion. Today, we'll 
consider the other side of the equation: the sunk costs.
    We're focusing on lowering the costs of deployment by 
considering legislation that would help to streamline red tape 
in permitting and by providing access to existing 
infrastructure that would help to reduce costs by eliminating 
delay and uncertainty in deployment.
    Specifically, we will consider a bill that would require 
the government to maintain a database of federal assets. This 
is a step that many in the Administration have already called 
for. This database would allow infrastructure providers to 
quickly determine efficient routes for laying fiber or 
attaching antennas; it would provide points of contact to allow 
infrastructure providers to identify their negotiating 
partners. We will also consider how to ensure that agencies 
make broadband infrastructure permitting a priority--by 
requiring the Senior Real Property Officer of each land-holding 
agency accountable for the performance of the agency in this 
respect.
    We are also considering a bill to ensure that poles owned 
by federal entities become available to broadband 
infrastructure providers at the statutorily regulated rate. 
Poles have been an essential input to the deployment of 
telephone and cable services, and they continue to be essential 
inputs to broadband infrastructure; stringing wire on poles can 
be much more economical than burying fiber in city streets. 
This legislation allows us to explore the possibility of 
increasing access to federally owned poles as well as 
clarifying the rates and placement of poles across the country.
    We will also review H.R. 3805, a bill introduced by the 
Ranking Member of this Subcommittee with myself and most of 
this subcommittee. The Broadband Conduit Deployment Act is a 
sensible idea that many in the broadband industry have 
recommended. The bill will require states to evaluate the need 
for broadband conduit whenever they dig up the roads for a 
federal funded project. Simply having that conduit installed in 
the roads already will reduce the costs of broadband deployment 
significantly.
    This subcommittee will also take on the project of 
streamlining the permitting processes for federal agencies with 
significant control over federal lands. One of the concerns 
most frequently expressed by those seeking to deploy broadband 
infrastructure is that permitting processes are inconsistent 
from field office to field office or from army base to army 
base. We will consider a bill to address the inconsistencies by 
requiring the Department of the Interior, the Forest Service, 
and the Department of Defense to streamline and standardize 
their permitting processes, making them as efficient as 
possible for those seeking to provide broadband service.
    We also have a draft bill before us today that streamlines 
the agency-required reviews under the National Historic 
Preservation Act and under the National Environmental 
Protection Act. This draft bill would seek to eliminate 
duplicate Section 160 and NEPA reviews, striking a balance 
between protecting our cultural and environmental treasures and 
accelerating the pace of broadband infrastructure permitting.
    Last but not least, we will continue the good work started 
in the 112th Congress in the Spectrum Act. We required GSA to 
develop master contracts, forms, and fee schedules for the 
attachment of antennas to federal properties. We have a draft 
bill before us that makes clear that we expect agencies to use 
those master contracts, forms, and fee schedules.
    I'd like to thank our witnesses today for taking the time 
to comment on the legislation and to help us understand how we 
can improve the legislation as we move on to the next steps. 
Our intent is to maintain an open and interactive process in 
drafting this legislation so that we can strike the right 
balances and arrive at the right policies for spurring 
broadband deployment.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you. And good morning, Mr. Chairman. And 
all of our thanks from this side for having this hearing. And 
welcome to the witnesses.
    Competition, competition, competition. We have heard 
Chairman Wheeler, members of the committee repeat these words 
over and over and over again, and yet \3/4\ of U.S. households 
have access to just one broadband provider capable of offering 
the speeds needed to unlock everything the internet has to 
offer.
    This summer I heard from Vince, a constituent in Santa 
Cruz, who told me he pays about $140 a month for two landlines 
with long distance and a DSL line that is supposed to be 6 
megabits. He told me that if he were actually able to get those 
speeds, the service would be almost usable for running his home 
business and having a movie night using Apple TV and Netflix.
    Unfortunately, Vince's story is all too common not just in 
my congressional district, which may surprise many of you given 
that it is Silicon Valley, but around the country. With 
competition comes lower prices, faster speeds, and better 
customer service.
    Last week, Chairman Walden--and I am so grateful to him for 
joining and being the Republican lead along with 26 other 
cosponsors--joined me in reintroducing--my idea has been around 
since, what, 2009. But you know what? Some things take time to 
mature or be appreciated--the Broadband Conduit Deployment Act. 
It is commonly called ``Dig Once.'' And it is so commonsense 
that I have even wondered why we didn't come up with this a 
decade ago. But at any rate, we are at it now.
    And it would mandate the inclusion of broadband conduit, 
plastic pipes which house fiber optic communications cable, 
during the construction of federally funded roads when there is 
a demonstrated need for broadband during the next 15 years. 
Well, we know that there is that demand. So it is commonsense, 
it is bipartisan, it would expand access to broadband for 
millions of Americans, and the cream on the top is that it 
would save taxpayers considerable sums.
    So the subcommittee today is also considering five draft 
bills intended to improve and streamline government process 
that can hinder the deployment of broadband, and I think they 
are really terrific ideas. The best part is that if we can 
package all of these and move them forward, that collectively 
they will really put a dent in the processing that we have. So 
I welcome them, especially by expanding the FCC's 
nondiscriminatory access obligation to include telephone poles 
located on federal property, the Federal Government owns a lot 
of property in the country, so to inventory that and then be 
able to really up our game I think would really make a huge 
difference.
    So if enacted into law, as I said, collectively these ideas 
and the ``Dig Once'' policy is going to bring broadband into 
unserved areas in our country and underserved areas, which is 
so important.
    So I thank all of my colleagues for their ideas and what we 
are going to discuss today. Thank you to the witnesses. We look 
forward to hearing from you. And I will yield the remainder of 
my 54 seconds to Congresswoman Matsui.
    Ms. Matsui. Thank you very much, Ranking Member Eshoo. And 
I want to thank the witnesses for being here today.
    Today, the subcommittee is discussing six proposals to 
facilitate broadband deployment across our nation. Many of my 
colleagues come from rural districts in which you really face 
unique hurdles in building infrastructure. But even in my urban 
district of Sacramento we have challenges to ensuring that all 
of our residents have the access they need to succeed in the 
21st century.
    I am pleased to join Ranking Member Eshoo and Chairman 
Walden as cosponsor of H.R. 3805, which encourages ``Dig Once'' 
so that when highway projects are under construction, we also 
install broadband conduit.
    I also support the concepts we are discussing today about 
how to better leverage existing federal assets to support 
broadband deployment. In particular, I hope to hear from our 
witnesses about the proposal to create an inventory of federal 
infrastructure and property that can be used for broadband.
    Broadband infrastructure is essential. Whether our 
constituents are urban or rural, middle income or lower income, 
I look forward to continuing our bipartisan work in this area.
    And I yield back.
    Mr. Walden. The gentlelady yields back the balance of her 
time.
    I turn now to the Chairman of the full committee, the 
gentleman from Michigan, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    We all know that robust infrastructure is the skeleton for 
a healthy economy. That is true for transportation, for energy, 
and unquestionably for communications, an industry where the 
pace of consumption is growing exponentially.
    Folks in Michigan, like all Americans, have a near 
insatiable appetite for all the information, products, and 
services that the internet has to offer. To keep up with the 
ever-growing demand of a flourishing sector of the economy, 
broadband communications providers must build and innovate 
constantly, every day.
    But we can't build efficiently if we get in our own way. 
The government permitting process has stymied transportation 
networks, energy networks, and communication networks. Both 
Presidents Bush and Obama have recognized the maze of red tape 
that infrastructure builders must navigate in order to build 
into the backbone of our national economy. Both Presidents have 
also attempted to cut back the endless reviews, requirements, 
and requests that hinder efficient, timely, and economic 
deployment of communications infrastructure. So it is time for 
this committee to put the pedal to the metal and improve 
government permitting for broadband networks.
    This is a bipartisan effort. That has always been the 
hallmark of this subcommittee. Both Democrats and Republicans 
have been at the drafting table together for a long time to 
think through good policy and put them into actionable laws. I 
would hope that we can continue this effort to help our 
nation's communication networks thrive and continue to 
contribute to our success in the global economy.
    And I yield the balance of my time to Mrs. Blackburn.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    We all know that robust infrastructure is the skeleton for 
a healthy economy. This is true for transportation, for energy, 
and unquestionably for communications, an industry where the 
pace of consumption is growing exponentially. Folks in 
Michigan, like all Americans, have a near insatiable appetite 
for all the information, products and services the Internet has 
to offer. To keep up with the ever-growing demand of a 
flourishing sector of the economy, broadband communications 
providers must build and innovate constantly.
    But we can't build efficiently if we get in our own way. 
The government permitting process has stymied transportation 
networks, energy networks, and communications networks. Both 
Presidents Bush and Obama have recognized the maze of red tape 
that infrastructure builders must navigate in order to build 
into the backbone of our national economy. Both presidents have 
also attempted to cut back the endless reviews, requirements, 
and requests that hinder efficient, timely, and economic 
deployment of communications infrastructure. It's time for this 
committee to put the pedal to the metal and improve government 
permitting for broadband networks.
    This is a bipartisan effort. That's always been the 
hallmark of this subcommittee. Both Democrats and Republicans 
have been at the drafting table together to think through good 
policy and put them into actionable laws. I hope that we can 
continue this effort to help our nation's communications 
networks thrive and continue to contribute to our success in 
the global economy.

    Mrs. Blackburn. Thank you, Mr. Chairman. And thank you all 
for being here to talk with us.
    I think, as you can see, there is a lot of agreement on the 
fact we have got a big job in front of us. And basically, you 
can sum it up and say how do we expedite building out the 
network and how do we allow the environment for increased 
speeds? This is what people want.
    When you look at the demand, the demand is not sitting 
around waiting on some committee to do its job. The demand is 
continuing to increase. And as you are looking at 2019 and you 
are talking about 3.9 billion interconnected devices, it means 
we have to move forward with this.
    The other issue is access to federal property. It does need 
to be addressed. And as we go through this process, I would 
encourage, Mr. Chairman, that we look closely at how we 
approach that.
    And with that, I yield to any Member who is seeking time. 
Mr. Latta gets the balance of the time.
    Mr. Latta. Well, I appreciate the gentlelady for yielding. 
And I also thank our witnesses for being with us today.
    Broadband has fundamentally changed the way we live our 
lives. From online banking to streaming videos, the demand for 
high-speed is relentless. There is a clear need for more 
investment in American broadband networks, and this is 
especially evident in the rural areas I represent where some 
households are not afforded access to high-speed services.
    However, there are real challenges to investing in 
broadband infrastructure. The costs associated with building, 
maintaining, and upgrading networks is often overlooked and 
taken for granted. That is why our law should not further 
impede build-out.
    The Federal Government should find ways to eliminate 
barriers and encourage a continued model of private network 
investment that has been successful in our country. I hope that 
the discussion that we have today will start a healthy debate 
on how to best assist deployment of this critical 
infrastructure to support wireline and wireless broadband 
services.
    And with that, I yield back the balance of my time to the 
gentlelady.
    Mr. Walden. Are there any Republicans who want to use up 
the remaining minute? If not, I will turn to the gentleman from 
New Jersey, the ranking Democrat on the full committee, Mr. 
Pallone, for opening comments.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Walden. I will keep my 
remarks short because I think there are some other Members who 
would like to use my time.
    Consumer demand for high-speed broadband continues to 
surge. To meet this consumer demand, we must continue to invest 
in the networks that carry our data. As we can see here today, 
discussions about whether to invest in infrastructure do need 
to have two sides. Our priorities should never be whether to 
invest in infrastructure; it should be only how we invest. And 
the best way to build a sound infrastructure is to ensure that 
both industry and the government are working together.
    The bills we are considering today demonstrate how this is 
done. And I want to thank the authors of all of today's bills 
for their efforts and dedication to meeting consumer demand and 
doing it in the right way.
    But our work is not done because more and more of our 
communications needs are going wireless, and when it comes to 
wireless networks, infrastructure is only half the story. But 
for wireless networks to handle consumer traffic, we also need 
spectrum.
    The budget agreement that we are considering today would 
direct the auction of 30 megahertz of spectrum for commercial 
use, and that is a good start. But we can't stop there. We 
should continue our bipartisan work in this committee to 
authorize more spectrum auctions going forward. By continuing 
these twin efforts to improve network infrastructure and to 
freeing more spectrum, I believe we can meet consumers' 
communication needs for years to come. And by working in a 
bipartisan fashion, we can show the country that our government 
can still work for them.
    I was going to yield whatever time he needs to 
Representative Loebsack.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you Chairman Walden for calling this hearing. I will 
keep my remarks short so we can hear from some other members 
who also care deeply about these issues.
    Consumer demand for high-speed broadband continues to 
surge. To meet this consumer demand, we must continue to invest 
in the networks that carry our data.
    As we can see here today, discussions about whether to 
invest in infrastructure do need to have two sides. Our 
priority should never be whether to invest in infrastructure; 
it should be only how we invest.
    And the best way to build a sound infrastructure is to 
ensure that both industry and the government are working 
together. The bills we are considering today demonstrate how 
this is done. I thank the authors of all of today's bills for 
their efforts and dedication to meeting consumer demand and 
doing it the right way.
    But our work is not done. Because more and more of our 
communications needs are going wireless. And when it comes to 
wireless networks, infrastructure is only half the story. But 
for wireless networks to handle consumer traffic, we also need 
spectrum.
    The budget agreement that we are considering would direct 
the auction of 30 megahertz of spectrum for commercial use. 
That is a good start, but we cannot stop there. We should 
continue our bipartisan work in this committee to authorize 
more spectrum auctions going forward.
    By continuing these twin efforts to improve network 
infrastructure and to free more spectrum, I believe we can meet 
consumers' communications needs for years to come. And by 
working in a bipartisan fashion, we can show the country that 
their government can still work for them.
    I yield the rest of my time to Representative Loebsack.

    Mr. Loebsack. Thank you, Ranking Member Pallone, for 
yielding me the time. And I would like to thank the 
subcommittee for holding this important hearing today.
    As I have said many times before this subcommittee, 
including yesterday, just yesterday, improving broadband access 
is essential, particularly in districts like mine that are 
rural and have significant barriers to infrastructure 
development.
    Every time I go home to my district, which is just about 
every weekend, I hear from my constituents about how important 
it is for Iowa families, businesses, hospitals, and schools to 
be connected in today's economy. I am very pleased that the 
subcommittee has worked to put together the draft bills that we 
are looking at today. I look forward to discussing these bills 
and exploring ways that we can help smooth the way for further 
infrastructure development.
    At some point soon, I hope we also, however, turn our 
attention to the challenges of building and operating networks, 
especially wireless coverage, in areas of the country where 
people work and live and visit but where companies do not find 
it in their economic interest necessarily to build out. I 
believe that that challenge will require us to consider how 
networks are funded and will become an important component to 
the issue we are discussing here today.
    And I thank the witnesses who are here today, and I yield 
back my time. Thank you, Mr. Pallone.
    Mr. Pallone. Mr. Chairman, I yield to Representative Lujan 
what time he might use.
    Mr. Lujan. Mr. Chairman, thank you so very much and to our 
chairman and ranking member for scheduling this incredibly 
important hearing to continue the conversation on how we expand 
access to broadband.
    This issue is vital both to our economic future and our 
constituents' quality of life. By supporting broadband 
deployment, we support the entrepreneurs and innovators who 
want to build brighter futures for their people. By connecting 
schools, we help tackle the homework gap and prepare children 
to succeed in today's competitive economy.
    But as we all know, when it comes to broadband, too many 
Americans have been left behind. This is especially true for 
rural parts of America. Currently, more than half of rural 
Americans and \2/3\ of Americans living on tribal lands lack 
access to advanced broadband. In New Mexico, those numbers are 
77 percent and 89 percent respectively.
    Clearly, we have more to do to scale this digital divide, 
and the discussion drafts we are reviewing today are a good 
first step. And I am happy to see a bipartisan commitment to 
support the deployment of broadband infrastructure.
    And with that, I yield back the balance of my time.
    Mr. Pallone. I am not sure if anyone else on my side would 
want to say anything.
    All right. I yield back, Mr. Chairman.
    Mr. Walden. The gentleman yields back the balance of his 
time. All time is expired. We will now go to our witnesses.
    Thank you very much for being here to each of you and your 
testimony that you have submitted for us. We will start with 
Heather Burnett Gold, who is the president and CEO, FTTH 
Council Americas. Thank you for being here.
    All of you, when you use the mics, just pull them 
uncomfortably close and make sure that little light is lit and 
you will be good to go.
    So thanks for being here, and please go ahead, Ms. Gold.

  STATEMENTS OF HEATHER BURNETT GOLD, PRESIDENT AND CEO, FTTH 
 COUNCIL AMERICAS; SCOTT BERGMANN, VICE PRESIDENT, REGULATORY 
AFFAIRS, CTIA; JEB BENEDICT, VICE PRESIDENT, FEDERAL REGULATORY 
  AFFAIRS AND REGULATORY COUNSEL, CENTURYLINK; AND DEB SOCIA, 
            EXECUTIVE DIRECTOR, NEXT CENTURY CITIES

               STATEMENT OF HEATHER BURNETT GOLD

    Ms. Gold. Good morning, Chairman Walden, Ranking Member 
Eshoo, and members of the subcommittee. Thank you for inviting 
the Fiber to the Home Council Americas to testify on breaking 
down barriers to broadband infrastructure deployment.
    The council is dedicated to accelerating deployment of all-
fiber networks by incumbent telephone companies, cable 
providers, competitive private builders, municipalities, and 
others.
    Fiber optic cable is by any measure the most future-proof 
wireline infrastructure. Recent studies show that all-fiber 
networks promote economic growth and actually increase property 
values. Much progress has been made. Today, fiber-to-the-home 
networks pass approximately 30 percent of our households and 
many more of our businesses. Many agencies from the FCC to 
state and local governments have already lowered barriers and 
provided incentives for all fiber deployments.
    But as the experience of my members has told me, there is 
much that needs to be done. I will focus on two such areas 
today: access to federal property and access to poles.
    Earlier this year, the President created the Broadband 
Opportunity Council, which focuses on federal-agency efforts to 
facilitate broadband deployment. The BOC appropriately 
identified many actions to incense such deployment, but it is 
clear that legislative authority would further their 
implementation and make the Federal Government more efficient 
when administrating those assets.
    First, Congress should mandate creation of a complete and 
interactive database of federal assets maintained by agencies 
on which broadband infrastructure can be attached or installed.
    Second, legislation is needed to ensure that ``Dig Once'' 
is implemented by the relevant federal agencies where conduit 
is installed simultaneously with government highway 
construction projects.
    Third, legislation should require common permitting 
application processes and fee schedules for access to federal 
assets regardless of the technology being deployed and obligate 
federal agencies to maintain records tracking applications and 
their resolution.
    Fourth, where historic, cultural, and scientific reviews 
have already been undertaken regarding a federal asset, 
subsequent providers seeking access ordinarily should not have 
to complete such a review.
    And finally, to reduce open-ended delays in the approval 
process, Congress should adopt a shot clock providing for 
automatic permitting approval after a specific time period.
    I would like to now turn to the significant problem 
providers face when seeking access to poles of utilities and 
local exchange carriers.
    In 2011, the FCC addressed some of the key problems service 
providers were facing with pole owners and attachments. Yet 
even after the FCC's action, the council members still 
encounter substantial problems when seeking access to poles, 
which compels me to ask for Congress's help on their behalf.
    First, because attachers have found the FCC's timelines are 
regularly flouted by many pole providers, Congress should 
codify the timelines, direct the Commission to develop 
streamlined procedures for expeditious resolution of any 
complaints concerning timeline violations, and give the 
Commission clear authority to impose fines at levels that would 
motivate adherence to those timelines.
    Second, new legislation should make clear and provide for 
prompt enforcement of the obligations of pole owners to 
identify properly certified contractors that attachers can use 
to perform pole survey and make-ready work in a timely fashion.
    Third, Congress should preclude utilities from requiring 
new attachers to pay for make-ready to fix existing violations 
of others before obtaining access to poles and allow only cost-
based make-ready charges for the work still needed after the 
violations are corrected.
    Fourth, Congress should simplify the Pole Act and eliminate 
the cause for continuing disputes by making clear that so-
called cable rate, which the federal courts have found fully 
compensatory, applies to all attachers.
    Finally, all pole owners should be brought within the scope 
of the Pole Act and the FCC's implementing regulations.
    [Audio malfunction in hearing room.]
    Ms. Gold. Pole attachments can be found in my written 
testimony.
    In closing, the council commends the subcommittee for 
hearing concerns about barriers that stand in the way of fiber 
network deployment. We stand ready to work with you as you move 
forward.
    Thank you again for this opportunity.
    [The prepared statement of Ms. Gold follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Ms. Gold, thank you for your testimony. We 
appreciate your comments.
    We will now go to Mr. Scott Bergmann, who is the vice 
president for regulatory affairs, CTIA. Mr. Bergmann, thank you 
for being here. Please go ahead.

                  STATEMENT OF SCOTT BERGMANN

    Mr. Bergmann. Chairman Walden, Ranking Member Eshoo, and 
members of the subcommittee, thank you for the opportunity to 
share the wireless industry's perspective on promoting 
broadband infrastructure deployment.
    Sound infrastructure policy is a necessary complement to 
good spectrum policy. CTIA commends the subcommittee for its 
leadership on a long-term spectrum plan to ensure that 
America's wireless industry can remain the world's leader and 
an engine for investment and innovation.
    We also applaud your focus today on promoting reasonable 
and predictable policies that enable timely deployment of 
wireless infrastructure. To that end, CTIA commends the 
bipartisan staff discussion drafts and the Eshoo-Walden ``Dig 
Once'' bill. These proposals can help CTIA's members 
effectively deploy the world's most advanced wireless networks.
    To build out wireless infrastructure that reaches all 
Americans, our members need access to locations controlled by 
the Federal Government and by non-Federal Government entities. 
In the roughly \3/4\ of the country governed by the local 
zoning process, the FCC's 2009 shot-clock order produced a 
framework that has provided clarity and accelerated wireless 
broadband deployment. That order established much-needed 
deadlines for local governments and recognized that co-
locations, which take place on existing sites, should move 
faster.
    CTIA supported the FCC's order and helped defend it in 
court, where it was upheld in a 2013 Supreme Court decision. 
The shot-clock order has already begun to produce positive 
results. Siting applications that were backlogged began to move 
speeding facilities' deployment and improving network coverage. 
And a number of states have embraced the successful shot-clock 
approach, most recently, California just 3 weeks ago.
    Congress took an equally important step when it adopted the 
2012 Spectrum Act. In Section 6409 Congress provided that 
zoning authorities may not deny and shall approve eligible 
requests to modify existing wireless facilities. As implemented 
by the FCC in 2014, this ability to co-locate by right is 
enormously helpful to carriers as we migrate to new generations 
of technology and look forward to 5G.
    But more needs to be done. The FCC has helpfully started a 
proceeding to speed deployment of small cells and is working to 
permit greater access to so-called twilight towers. We urge the 
Commission to complete these proceedings expeditiously.
    Unfortunately, Section 6409's provisions for federal 
property have not been implemented as successfully or as 
rapidly. The act directed GSA to establish common processes and 
contracts for wireless antenna deployments on federal property. 
And GSA was required to develop a common application form for 
federal easements and rights-of-way. Despite a 60-day deadline, 
GSA only recently acted on Section 6409.
    While we commend GSA's efforts, federal agencies must 
consistently adopt the standardized forms and contracts in 
order to fulfill Congress's intent. Congressional oversight is 
particularly important because the Federal Government controls 
several thousand buildings and roughly 28 percent of the U.S. 
landmass. Siting on these properties today is often complicated 
and time-consuming. Even lease renewals are often lengthy and 
bureaucratic. These delays deter investment and harm consumers.
    So we encourage the subcommittee to make federal citing 
process look more like the municipal process. This will produce 
revenue for the Federal Government; will help improve and 
extend service; it will spur investment and jobs; and it will 
enable government users, the private sector, and the public at 
large to benefit from America's world-leading wireless 
networks.
    So in addition to moving forward with the ``Dig Once'' 
legislation and the staff discussion drafts, CTIA offers 
several recommendations.
    First, federal agencies should have deadlines for acting on 
requests to site on federal properties. Those deadlines should 
reflect the lesser impact associated with co-locations.
    Second, all agencies should be encouraged to consistently 
use the common processes and contracts recently established by 
GSA.
    Third, Congress should direct the Commission to conclude 
its work on the small cell deployment proceeding by a firm 
deadline.
    And finally, Congress should direct the FCC to 
affirmatively state that twilight towers that have not been 
subject to prior objections need not be processed under the 
National Historic Preservation Act. This would allow those 
longstanding facilities to be upgraded on a timely basis.
    Collectively, these actions will improve the wireless 
industry's ability to deploy infrastructure and to enhance 
America's economic well-being.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Bergmann follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Thank you, Mr. Bergmann. We appreciate your 
testimony.
    We go now to Jeb Benedict, Vice President, Federal 
Regulatory Affairs and Regulatory Counsel for CenturyLink. Good 
morning. Thanks for being here.

                   STATEMENT OF JEB BENEDICT

    Mr. Benedict. Good morning, Chairman Walden, Ranking Member 
Eshoo, and other distinguished members of the committee. Thank 
you for having me, and thank you for introducing the Broadband 
Conduit Deployment Act. Measures like this can make it easier, 
faster, and more cost-effective to connect more Americans.
    CenturyLink operates a nationwide broadband network. We 
have a local network that covers nearly 600,000 square miles. 
We have a quarter-million miles of domestic fiber and more than 
a million miles of copper cable. We have millions of customers 
we serve directly, we provide wholesale capacity to many other 
providers, and we deliver connectively to tens of thousands of 
wireless towers nationwide.
    With such a large network, we necessarily work closely with 
federal land use employees, and I can say we know that they are 
dedicated public servants. They are professionals who take 
their responsibility seriously. And we have and value 
constructive relationships with them. But even so, the cost and 
delays associated with access to federal lands pose a real and 
frustrating problem, and it is one that this committee could 
help with.
    Congress should consider steps to reduce permitting delays, 
as discussed here. Broadband deployment, needed upgrades to 
rural communities, and urgently needed connections to wireless 
towers all are routinely delayed because of the slow review 
process. Agency permits commonly take 12 to 15 months, whereas 
on state and private lands, similar arrangements can be 
completed in just weeks.
    We realize that agencies have limited resources, but within 
agency budgets we think headquarters really aren't treating the 
permitting function as a priority. We like to think that 
Congress can at least ensure broadband applications receive 
priority over other applications, just as electric utilities 
commonly and appropriately receive priority today.
    Congress could consider legislation to expand categorical 
exclusions for previously disturbed areas. We support good 
stewardship of public lands and we strive to follow responsible 
environmental and historic practices, but in most of our 
installations, we are simply adding fiber to existing poles and 
conduit or we are trenching new fiber in road shoulders.
    Federal land use agencies should be directed to expand use 
of categorical exclusions under NEPA and Section 106 just as 
the Federal Highway Administration and the Federal Transit 
Administration did last year under MAP-21.
    Congress should consider steps that minimize or eliminate 
federal permitting fees and lease rental for broadband 
facilities. Any dollars spent on federal right-of-way is a 
dollar unavailable for network. Where economics of deployment 
are marginal, some people won't be connected or upgraded when 
they otherwise could be.
    Congress also should encourage better interagency 
coordination. Permitting delays are most frustrating when a 
fiber route crosses several agency lands where more than one 
agency must approve our request. We are held hostage to 
whichever review is slowest.
    This committee could also examine some of the other 
barriers to broadband deployment. It could help ensure that we 
have equal and nondiscriminatory access to municipal and co-
operative poles. We are compelled to make our poles available 
to other providers but co-ops, munis, and public utility 
districts routinely deny us access or demand unreasonable fees.
    Congress should ensure municipalities can't discriminate in 
access to public rights-of-way. Too many jurisdictions charge 
us an unreasonable rate for permission to place our facilities 
in the public right-of-way. And many others give providers, 
especially municipal systems, free access when we are assessed 
discriminatory franchise fees, taxes, permit requirements, and 
rights-of-way fees.
    Congress should also clarify the limited rights of 
railroads in rights-of-way that are granted by the government. 
It should confirm that other users have reasonable, cost-
effective access to those public corridors.
    We have seen signs of improvement on federal rights-of-way 
issues, and we welcome the President's 2012 executive order. We 
appreciated the White House OSTP's review of the categorical 
exclusions and the Broadband Opportunity Council's attention to 
access and permitting. And Congress has helped with measures 
like MAP-21 and the legislation being discussed today. These 
are all positive starts.
    We look forward to working with Congress, with the federal 
agencies and the White House to help promote needed broadband 
infrastructure investment, especially in rural areas.
    Thank you for letting me appear today, and I will welcome 
your questions.
    [The prepared statement of Mr. Benedict follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Mr. Benedict, thank you for your testimony. We 
appreciate it.
    We will now go to Ms. Deb Socia, who is the executive 
director, Next Century Cities. Ms. Socia, thank you for being 
here today. We look forward to your testimony.

                     STATEMENT OF DEB SOCIA

    Ms. Socia. Thank you. Good morning, Chairman Walden, 
Ranking Member Eshoo, and distinguished members of the 
subcommittee. My name is Deb Socia, and I am the executive 
director of Next Century Cities, a bipartisan city-to-city 
initiative with 120 member communities across the country. Our 
leaders are dedicated to ensuring that all have access to fast, 
affordable, and reliable broadband.
    High-speed internet access is essential from our smallest 
community, Alford, Massachusetts, to much larger cities like 
Los Angeles. Our members are committed to universal high-
quality internet access from multiple providers, and not just 
for economic development but to improve the quality of life for 
everyone in the community. Our communities are doing yeomen's 
work, wiring businesses, schools, and residents.
    On behalf of our membership, representing 25 million 
Americans, our message today is simple. This is hard work, and 
we welcome bipartisan federal leadership to reduce the cost- 
and time-intensive burden on Next Century City members and 
communities across the Nation. For example, easing access to 
federal land and assets for those deploying next-generation 
networks will encourage investment from both public and private 
entities. Dig-once policies will reduce capital costs and 
streamline new broadband deployments.
    Consider Santa Monica, California, which adopted ``Dig-
Once'' some 20 years ago, thus lowering the cost of both public 
and private investment throughout the city. The city leases to 
many ISPs, and that means real competition for local 
businesses. They also use their conduit and fiber to connect 
more than 100 buildings and deliver wireless connectivity to 
all major city corridors.
    Elsewhere, Mesa, Arizona, has used ``Dig Once'' to 
encourage private sector investment from both ISPs and from 
high-tech firms that can use the conduit to establish redundant 
fiber pathways. And in building its municipal fiber network, 
Longmont, Colorado, realized cost savings in connecting some 
neighborhoods because they had already been built with conduit.
    This July, Next Century Cities released a comprehensive 
policy agenda identifying concrete steps that all policy 
stakeholders could take from government officials to community 
members to members of the civil society of non-governmental 
agencies and institutions. All can take steps to help achieve 
fast, reliable, and affordable internet access. And our 
recommendations included ``Dig Once'' approaches, a low-cost 
solution at all levels of government.
    Next Century Cities believes that conduit can make 
significant difference, particularly at key bottlenecks such as 
bridges, overpasses, and railroad crossings. Particularly in 
rural areas, the cost of deploying fiber is far higher at these 
bottlenecks. Navigating these bottlenecks is especially 
challenging for new entrants, whether local companies, local 
governments, or other entities that lack the existing 
infrastructure of long-established providers.
    We are particularly interested in your deliberations on 
pole attachments. Some of our members own their own poles. 
Others have struggled to gain access to privately owned poles 
in a timely manner. So we are uniquely suited to participate in 
these conversations.
    In our experience, one of the fundamental challenges with 
pole attachment is not just the cost but the time it may take 
for make-ready to occur, despite the FCC's existing shot-clock 
order. To the extent the FCC is directed to examine this 
subject, it should investigate both time and costs. We believe 
it is useful to have more information on the location of poles 
and ducts.
    The one thing we are concerned about is the significant 
burden this mandate may place on cities and small utilities. We 
therefore encourage Congress to focus on the larger utilities 
that will cover the majority of our population rather than on 
the smaller utilities and cities that may not have yet fully 
computerized records.
    We would like to stress that while pole attachments are a 
concern for some network deployers, we hear as much or more 
frustration about the challenge of crossing railroad rights-of-
way, and we hope that Congress will soon address that potential 
barrier to investment.
    Day by day, the need for fast, affordable, and reliable 
broadband becomes more evident. Communities across the country 
are recognizing this urgent need and developing the critical 
broadband infrastructure their residents demand. And it is an 
issue that transcends partisanship here in D.C. and in 
communities nationwide.
    I am encouraged that the subcommittee has chosen to hold 
this conversation today. Hearings such as this can provide a 
critical platform for communities to share their experiences 
and develop opportunities for collaboration with federal 
policymakers.
    I look forward to continuing to work with members of the 
subcommittee and your colleagues to ensure that communities 
across the country can enjoy the next-generation broadband that 
is now crucial infrastructure for all citizens.
    Thank you.
    [The prepared statement of Ms. Socia follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Ms. Socia, thank you for your testimony. I want 
to thank all of you. It has been most helpful in our efforts 
here.
    I am going to start off with a couple of questions. First 
of all, I want to tell you what we face in a district like 
mine, which would stretch from the Atlantic to Ohio. It is one 
of the biggest land masses for a single district other than 
some of the single-member states. I was in Mitchell, Oregon, 
recently on a Sunday afternoon with a town hall, population 
126, 126 people, and there were probably 20 or 30 people at the 
town hall. They have been waiting 2 \1/2\ years for the Bureau 
of Land Management to finish a NEPA so that they can plug four 
power poles into the ground and finally get three-phase power 
to this town, 2 \1/2\ years and still don't have a decision.
    Meanwhile, they were pretty excited because finally they 
have some level of cell service if you are a Verizon customer 
because they bought these little extenders. And so now in 
downtown Mitchell, Oregon, which is about a block-and-a-half, 
if you are a Verizon customer, you can actually get cell 
service.
    There is a major east-west road that goes through this area 
with thousands of people every day going past. The city has a 
payphone booth there--the younger people in the audience, we 
will explain what that is/was--that the city pays for and a 
local grocery store houses just so they have a phone in town.
    So this occurs all across the country. Fifty-five percent 
of my district is federal land. We face this NEPA issue on 
everything. And it shouldn't take 2 \1/2\ years to figure out 
if you can put four power poles in the ground, but it does and 
they are not done yet.
    So I appreciate your testimony on what we are trying to do 
here. I want to ask Mr. Bergmann more about the shot clocks 
because I am intrigued by what you talked about there and 
others, as well as if you could--all of you are open to this 
one on these twilight tower issues and if you can talk in 
layperson's terms about what that really means is going on out 
there.
    So Mr. Bergmann and others, we will start with you. Shot 
clocks, do they work? We have tried to put them in other bills 
because we think they work, but clearly, if the GSA took 3 
years to do something we mandated them 60 days to complete, 
they have a problem.
    Mr. Bergmann?
    Mr. Bergmann. Thanks so much for the question, Mr. 
Chairman. And unfortunately, the experience you describe is not 
an uncommon one when looking to cite on federal lands, and it 
is something that our members have experienced particularly in 
parts of the country where extending coverage is really 
critical to the local economy and to public safety. Making sure 
that we have wireless infrastructure siting on federal lands is 
really key to that mission.
    So learning the lesson from what Congress did in 2012 I 
think is really instructive. When Congress adopted a shot clock 
for the ability to co-locate in the municipal context, what we 
found is that the process started to move much more quickly. 
And we found that with the FCC's 2009 shot clock order, in both 
cases applications that had been backlogged started to move. 
Our folks were able to deploy. And now we need this same sort 
of discipline to the process on the federal side as well, too.
    Mr. Walden. OK. Others on the panel want to comment on 
that?
    Ms. Socia. I will mention that this issue applies to our 
rural communities as well. And one of our rural communities was 
trying to build a public safety network, and it took them 2 
years longer because of the time required to get permitting. 
And in some of our urban communities, they suffer with long-
term permitting issues as well, and in some cases, our cities 
have determined to just find more expensive workarounds----
    Mr. Walden. Right.
    Ms. Socia [continuing]. Rather than ask for permission to 
use federal lands.
    Mr. Walden. We are fighting this with a major power line, 
the Boardman to Hemingway line. And to avoid going on the 
federal ground, I am convinced Idaho Power is picking the 
private ground because they can use their powers for eminent 
domain, which they are trying not to do. But it is taking 
irrigated ag land out of production because they just don't 
want to fight this fight on the federal ground that is right 
there.
    Ms. Socia. That is what we are finding as well.
    Mr. Walden. Mr. Benedict?
    Mr. Benedict. We have similar frustrations. And I should 
also add that there really is no wireless without wires.
    Mr. Walden. Right.
    Mr. Benedict. A delay that is affecting a cell tower, even 
once resolved, if we are facing delays getting our fiber rooted 
to the tower, it is still out of operation.
    Mr. Walden. Yes. Ms. Gold?
    Ms. Gold. My members face all the same frustrations. I 
think the example I used was a 250-mile fiber route where they 
built the two ends, completed two ends and waited for the 8 
miles in between on the federal property an additional 6 
months.
    Mr. Walden. Out of 250 miles----
    Ms. Gold. Right.
    Mr. Walden [continuing]. There was 8 miles of federal----
    Ms. Gold. Eight miles and the----
    Mr. Walden [continuing]. See, I am just talking four power 
poles, 2 \1/2\ years.
    Ms. Gold. And a similar company has pending federal 
permitting applications that have been in place since May of 
2014. So I think the frustration is real.
    Mr. Walden. Yes. Thank you all.
    We will turn now to the gentlelady from California, Ms. 
Eshoo, for questions.
    Ms. Eshoo. Thank you, Mr. Chairman. And again, thank you to 
each of the witnesses. This is a softball question. Do you all 
support the ``Dig Once'' policy?
    Ms. Gold. Yes.
    Mr. Benedict. Yes.
    Mr. Bergmann. Yes.
    Ms. Eshoo. Terrific. A plus. You all passed.
    Last week, there were several elected officials in one of 
my local communities that wrote to me about the need to ensure 
that federal policies don't undermine their local permitting 
decisions for wireless facilities. And the Communications Act 
and the Spectrum Act have frequently been cited as provisions 
that limit local decision-making. It is a big issue for local 
government. And do you find that the bill and the ideas that we 
are considering today that are under discussion that would 
weaken or alter local permitting decisions?
    Ms. Gold. I don't see that. My members, generally when they 
get to a community, the community is so happy to have the 
deployment of fiber networks that they work with them, and this 
is a subject that we talk to our communities about a lot, how 
they need to situate themselves in order to welcome fiber 
providers.
    Ms. Eshoo. They don't find anything----
    Ms. Gold. So I don't see----
    Ms. Eshoo [continuing]. Menacing in what we are----
    Ms. Gold. No.
    Ms. Eshoo [continuing]. Doing relative----
    Ms. Gold. I----
    Ms. Eshoo [continuing]. To that issue?
    Ms. Gold. No.
    Ms. Eshoo. Good. Ms. Socia--that is a lovely name--I 
regularly hear from constituents that are mentioned in my 
opening statement who are frustrated by the high cost of 
broadband and the lack of choice in service providers. Your 
members include two of my constituent communities, the city of 
Palo Alto and Santa Cruz County. Have you seen evidence that 
the cost and speed of service are improved when local 
governments deploy high-speed broadband in their communities?
    Ms. Gold. Indeed, we have found that to be true. Whenever 
there is a new entrant into the market, it has become very 
clear that more investment happens, not less, and that in fact 
the cost for broadband reduces and the speed increases.
    Ms. Eshoo. On both fronts, that is excellent.
    Mr. Benedict, in July we heard from Governor Lewis of the 
Gila River Indian Community about the challenges of bringing 
broadband to tribal communities. You noted in your testimony 
that it can be especially difficult for your company to deploy 
or upgrade broadband on tribal lands given the cost and the 
challenges in accessing federal lands. If the six draft bills 
before the subcommittee were enacted into law, would 
CenturyLink be able to expand its deployment into unserved 
tribal land? It is a big issue that many of us have raised for 
several years here, and it really is a form of neglect, real 
neglect in our country. So can you enlighten us on this?
    Mr. Benedict. Well, the challenges of course are low 
population densities. And with the size of our footprint, we 
have a great many areas that are low density. We also have made 
a commitment to the FCC for Connect America Fund build-out to 
1.2 million locations, including in tribal communities.
    That said, the types of problems we are talking about here 
today are incremental cost and incremental barriers to our 
broadband deployment. As a consequence, you know, measures such 
as are considered in the draft legislation and in the ``Dig 
Once'' bill would in fact help reduce our costs.
    Ms. Eshoo. Well, that is encouraging.
    To all of the witnesses, we are talking about built-out of 
wireline and wireless broadband infrastructure. But given that 
the consumer experience also includes the use of Wi-Fi and 
other unlicensed uses, I want to make sure that we don't forget 
about them. So how do Wi-Fi and unlicensed uses factor into the 
infrastructure investment discussion that we are having today? 
For all of you, who would like to go first? Mr. Bergmann.
    Mr. Bergmann. I am happy to take the first pass. So we 
certainly support deployment in both licensed and unlicensed 
spectrum, and so we are big supporters of that from a spectrum 
perspective and also from an infrastructure perspective as 
well, too. We want to make sure that those facilities out 
there--and just to your first question, Congresswoman, wanted 
to make sure--California adopted a streamlined procedure just 3 
weeks ago.
    Ms. Eshoo. Yes.
    Mr. Bergmann. So the steps that you all are contemplating, 
I think, are very consistent with that overall reasonable 
framework for making sure that local officials can perform 
their roles but that we have some reasonable and predictable 
deadlines associated with the process.
    Ms. Eshoo. Great. Thank you very much.
    Mr. Walden. Before I move on to, let's see, Mrs. Blackburn, 
I want to introduce into the record, ask unanimous consent, a 
statement from the American Public Power Association giving 
APPA's analysis of the draft bill on pole attachments. Without 
objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. The chair will hear from others in the utility 
world about their views. I know they are not on this panel but 
they are not unnoticed.
    So now, let's go to Mrs. Blackburn for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I am going to 
try to not take the 5 minutes.
    Mr. Bergmann, I want to come to you. Let's talk about these 
master forms, contracts, fee schedules that were due in 2012. I 
think the GSA missed that deadline. And I want to ask you about 
your opinion on that, what more should we do or have we reached 
the final goal on that? So your comments, please.
    Mr. Bergmann. Thank you so much.
    So the GSA's adoption of the master forms and contracts, as 
you correctly point out, was over 1,000 days late. So we would 
have loved to have seen that process happen sooner, but we are 
very glad that they are adopted. Now, the key is to get them 
implemented. We need to make sure that federal agencies 
actually put them to use if we want to get the benefit out of 
those master forms and contracts. So oversight from this 
subcommittee would be very helpful to make sure that agencies 
adopt them and that they apply them in a consistent manner.
    We often find from base to base or office to office in 
agencies that processes are not applied in a consistent manner. 
So your help and oversight with that would be extremely 
helpful.
    Mrs. Blackburn. OK. Thank you. We will continue that 
oversight, and I think we probably had the frustration that was 
shared by many of you with the delay in hitting that deadline.
    Mr. Benedict, I want to come to you. You are hearing a good 
bit, and the chairman talked about the federal right-of-way and 
the issues that we are seeing there. In Tennessee I have 19 
counties, 10,000 square miles. And in that I have got a lot of 
rural, I have got a lot of underserved areas. And they are 
adjacent to federal lands or there is critical defense and 
energy projects that are around these areas.
    But it seems that the communities need the Federal 
Government out of the way in order to allow broadband because 
not being able to get that in there is stifling educational 
opportunities and economic development. And we hear about it 
every single time, and rightfully so we hear about it every 
single time we are in those communities.
    What I would like to do is to hear from you and any of you 
on the panel what the Administration could do to improve the 
interagency coordination without congressional intervention, 
just decide today that they are going to do this so you don't 
have the ridiculous issues of years of being required to 
complete a NEPA process for, as Chairman Walden said, putting 
in a pole for an attachment. So if I could hear from you first 
and then any others that want to add.
    Mr. Benedict. Well, one thing that could help significantly 
is taking steps to streamline applications that have minimal 
real environmental or historical impact, and that is through 
the obscure categorical exclusion process. We have actually, as 
an industry group, been talking with the White House Office of 
Technology Policy on measures that the Administration could 
undertake directly----
    Mrs. Blackburn. OK.
    Mr. Benedict [continuing]. As they are directed to agency 
to try to streamline the process where installation of new 
wireless or wireline facilities actually has minimal 
environmental impact because it is in previously disturbed 
areas, consistent with what Congress has done on MAP-21.
    Mrs. Blackburn. Yes. Thank you. Anyone else to add a point?
    Ms. Gold. I do think the Broadband Opportunity Council 
looked at this issue, and they have made recommendations about 
streamlining the processes. I just think it would be 
legislative oversight and authority would be helpful to making 
the executive action more----
    Mrs. Blackburn. So continue to hold them accountable. 
Excellent.
    Thank you. I yield back.
    Mr. Walden. The gentlelady yields back the balance of her 
time.
    The chair now recognizes the gentleman from New Jersey, Mr. 
Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to start with Mr. Bergmann. For most of us, 
broadband has become an essential part of our day-to-day lives. 
Unfortunately, for over 60 percent of those living in tribal 
lands access to the kind of broadband remains out of reach. In 
many of these tribal areas, wireless services may be their best 
chance of getting online. So I just wanted to ask what is the 
industry doing to promote build-out on tribal lands?
    Mr. Bergmann. Congressman, thank you for the question. And 
I recall that you care deeply about tribal lands. The work that 
you are doing today can really make a big difference.
    In that part of the country, much of the land is controlled 
by federal agencies, so taking some of the steps that we have 
been talking about today to put some deadlines on BIA, on BLM 
can help us build out infrastructure to those areas more 
quickly.
    I might point out another area as well, too, which is that 
the FCC has talked about ongoing funding mechanisms to support 
build-out in rural areas and in tribal areas for mobile 
broadband. And so the attention of this committee to making 
sure that those mobility funds and tribal mobility funds are 
fully implemented can also help as well.
    Mr. Pallone. All right. Thanks.
    Ms. Socia, for much of the country, the private sector has 
done a good job making sure consumers have access to high-speed 
broadband, but still gaps remain, and I don't think we will 
find the silver bullet to close those gaps, which is why the 
draft bills we are discussing today try several different 
approaches. What do you think the Federal Government could do 
in striving for this goal? Do our discussion drafts help move 
us forward?
    Ms. Socia. I think they do. I think also the acknowledgment 
that this is critical infrastructure has been very helpful. I 
think, as I mentioned earlier, thinking about those key 
bottlenecks is very helpful locally as well.
    I think at the local level when it is difficult topology, 
when it is limited population density, there really isn't a 
financial model that makes it make sense for big companies to 
come in and build out and thinking about how we can help to 
incentivize that and to give local communities the capacity to 
make decisions about their own future.
    So, for example, we have a rural community in Massachusetts 
that chose to build their own, Leverett, Massachusetts, because 
even their copper line was not really successful for them, and 
every time it rained, they couldn't call 911. And no one else 
wanted to build out so they took it upon themselves to do it. 
And so we really applaud that kind of local control and that 
local opportunity for our folks to be able to solve their own 
problems at that level.
    Mr. Pallone. Well, thanks. I know there had been a number 
of creative experiments with new ways of deploying fiber for 
high-speed broadband, and one of the most well-publicized 
efforts has been Google Fiber. So I was going to ask you what 
early lessons we have learned from these types of experiments 
in deploying fiber throughout the country?
    Ms. Socia. So, one of the things we learned from that was 
that competition is great. And we all knew that competition is 
a good thing in any marketplace. When Google came in, the 
prices went down, the speeds went up. And we also learned that 
it is really important for communities and providers to work 
collaboratively to solve problems. And when they do, outcomes 
are positive. And the changes that our cities made to support 
Google they offered to all providers. That is a really helpful 
process for us to begin to think about how do we work 
collaboratively and how do we empower that local community to 
be part of the solution.
    Mr. Pallone. All right. Thanks a lot.
    Thank you, Mr. Chairman. I yield back.
    Mr. Latta [presiding]. Well, thank you very much. The 
gentleman yields back.
    And the chair now recognizes the Chairman Emeritus, the 
gentleman from Texas, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    I am not as familiar with these issues as some of the other 
members of the subcommittee. I have looked at the draft bills, 
and I must say that I am a little bit troubled. I am a market 
person. I believe markets work. I believe open, transparent 
markets are better than regulated markets. I believe incentives 
are better than federal mandates.
    I understand there are some real problems in siting on 
federal lands, and I understand that NEPA has been abused in 
ways that we didn't intend when that particular law was passed.
    So my first question is just a general question. Are the 
problems that you folks are facing in your business models, are 
they primarily generated because of the problems dealing with 
federal lands and federal facilities, or do you think that 
there are broader problems in the private land private sector? 
Anybody can answer that.
    Mr. Benedict. Well, I will begin. Our chief concern is on 
federal lands we face challenges in rights-of-way and property 
access everywhere, but the principal frustrations we run into 
are not state lands, they are not private landowners, but 
federal lands. And it is not because our permits will be 
denied; it is because of the processing delays. It is really a 
problem of process and not substance.
    Our concern isn't with NEPA. Our concern isn't with the 
National Historic Preservation Act. It is just how these are 
carried out in ways that needlessly delay our ability to get 
broadband infrastructure upgrades deployed.
    Mr. Barton. Do the other panelists agree that your problems 
are primarily on federal lands and federal facilities?
    Ms. Gold. [Nonverbal response.]
    Mr. Bergmann. [Nonverbal response.]
    Ms. Socia. [Nonverbal response.]
    Mr. Barton. I appreciate that. I just want to say I am 
troubled that we are beginning to take the position that access 
to wireless programs, wireless products, wireless services are 
some sort of an entitlement. Some people would hope that we 
would have a McDonald's on every corner but we let the market 
decide where we put McDonald's and Burger Kings.
    Generically, I think we should let the market decide when 
and where broadband is deployed. It is obviously much better 
than the old copper systems and the old telecommunications 
systems we had only like 10 or 15 years ago, but to begin to 
take the position that somehow this is an entitlement that the 
most rural, least densely populated part of our country should 
have the same services as downtown Manhattan to me just is not 
correct.
    In any event, the bills that deal with federal access, Mr. 
Chairman, I am generally supportive of, but I want to tread 
lightly in this area.
    And with that, I would yield back.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back. And the chair now----
    Mr. Barton. Oh, wait. If----
    Mr. Walden. Oh, I am sorry.
    Mr. Barton. If I still have time if somebody wanted to ask 
me a question or----
    Ms. Eshoo. I just have----
    Mr. Walden. The gentleman yields? I thank the gentleman----
    Mr. Lujan. Mr. Chairman, the observation that I make, Mr. 
Barton is representing one of those rural states like Mr. Greg 
Walden and his--I was just sharing with our Ranking Member 
Eshoo is that you can board a plane in Albuquerque, New 
Mexico----
    Mr. Barton. I have done it.
    Mr. Lujan [continuing]. And stay on the internet until you 
land in New York or San Francisco or Washington, D.C., or 
Dallas, wherever you go. And so if the technology exists for us 
to be able to stay connected at 30,000 feet traveling at those 
speeds, it appears that the technology would exist to connect 
the United States of America. We just need to figure out what 
that piece is.
    And so not necessarily from the perspective of, as I would 
describe it, as an entitlement, but connectivity is essential 
for safety purposes today, especially as we are seeing the 
abandoning of many of those antiquated copper systems that 
aren't being maintained and now even plain old telephone 
service is starting to lack in many of these communities as 
well.
    So I think therein lies an opportunity where market forces 
have worked, satellite deployment in other areas where we can 
see how we can connect to other people.
    Mr. Latta. The gentleman's time has expired, and the chair 
now recognizes the gentleman from Pennsylvania for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman. And I want to thank you 
for holding this hearing and thank the witnesses appearing 
before us.
    I would also like to thank and commend the chairman and the 
majority staff for working with us to come up with a slate of 
legislative proposals that advanced our shared goal of 
promoting broadband deployment. I am particularly proud of the 
bipartisan legislation introduced by my good friend Anna Eshoo 
and Greg Walden setting the ``Dig Once'' policy into law. This 
is way overdue, and I encourage the committee to move forward 
on this bill.
    Let me start by asking Mr. Bergmann a question. You 
mentioned in your testimony many of the challenges faced by 
wireless carriers in deploying wireless infrastructure on 
federal structures and federal lands. Specifically, you 
mentioned the need for Congress to encourage federal agencies 
to implement the common processing contracts established by GSA 
pursuant to the Spectrum Act. Do you believe that the draft 
bill directing adoption of these practices achieves that goal?
    Mr. Bergmann. Yes, sir.
    Mr. Doyle. Thank you. I support this bill also, and I think 
it is an example of smart, sensible policies that we need to 
advance wireless broadband deployment in this country.
    I want to ask Mr. Benedict. I noticed in the draft bill 
that addresses pole attachments, I notice a change in current 
law. Among the many sensible reforms to pole attachment policy 
and data collection, I saw that the rates charged to ILECs like 
CenturyLink by energy utilities would be substantially reduced 
as you would pay the FCC-regulated telecom rate for pole 
attachments under the draft bill.
    I just have two questions about that. First, if ILECs were 
to pay a substantially lower rate to energy utilities for 
access to poles, who picks up the cost differential that 
results from that lower rate?
    And secondly, can you explain the differences to us between 
the services that an ILEC currently receives under the current 
rate structure versus what I understand are scaled-down 
services available to service providers that pay that telecom 
or cable rate?
    Mr. Benedict. Well, actually, our chief concern is having a 
more level competitive playing field when it comes to pole 
attachments. The FCC has taken some action to reform the 
process, but we still end up in a situation where ILECs 
commonly pay more on electric utilities than other attachers, 
particularly cable.
    Mr. Doyle. My understanding is you get more services for 
that than those groups that are paying the telecom or cable 
rate is under this new bill, is that equalized, you are paying 
that lower rate that the telecoms and cables pay or are you 
also getting that scaled-down service----
    Mr. Benedict. Well----
    Mr. Doyle [continuing]. Or are you maintaining what you 
have?
    Mr. Benedict. Well, the charges are also a portion 
according to either the space or the usage on the pole.
    Mr. Doyle. Sure.
    Mr. Benedict. And to the extent that we are not imposing 
any larger burden on the pole owner, then rates should be 
comparable. There really shouldn't be a distinction between our 
fiber and another party's.
    Mr. Doyle. But if you are paying less, someone has got to 
pick up that--utilities are saying, well, they are just going 
to pass that on in the utility bills to consumers. So I guess I 
am just trying to understand what happens to that cost 
differential under that bill.
    Mr. Benedict. Well, the FCC's oversight--and indeed States' 
oversights of ILEC pole charges, where they are regulated, 
which is not everywhere, that actually reflects costs from the 
pole based on publicly available information, public accounting 
information. So the numbers are not pulled out of the air. We 
face a different problem where we are talking about co-op or 
municipal-owned poles where they are not subject to that 
oversight.
    But with electric utilities there is a measure of 
discipline that the FCC has helped enforce. Previously, we 
didn't have a clear right to attach, which left us in something 
of a less clear situation in terms of our rights, the rates 
that could be charged to us and the terms that could be imposed 
on us.
    Ultimately, we all have an interest in advancing broadband 
deployment and broadband upgrades, and the cost of attachments 
are significant, especially in rural areas. If we were looking 
at a $25 or a $30 pole attachment rate and need to attach to 10 
or 12 poles to reach a----
    Mr. Doyle. No, I understand that. I am just saying if your 
costs go down, somebody is picking that up and I am just 
curious who is picking up that additional cost.
    Mr. Benedict. Well, I can't speak to that. But I can say, 
the costs are often higher than they ought to be----
    Mr. Doyle. Thank you.
    Mr. Benedict [continuing]. Frankly.
    Mr. Doyle. I noticed a lot of green ties in the audience. I 
thought it was maybe an early St. Patrick's Day, but I 
understand that is the CenturyLink color. And everyone wears 
the green tie, so as an Irishman, I appreciate that.
    Mr. Chairman, I yield back.
    Mr. Latta. All right. The gentleman yields back, and his 
time has expired.
    The chair now recognizes himself for 5 minutes.
    And again, I would like to thank the witnesses for being 
with us today. And this is a question to all of our witnesses 
today.
    We have defined broadband in the draft legislation as a 
service capable of providing advanced telecommunications 
capability under Section 706, largely leaving the definition to 
the FCC's discretion. We have some reservations about whether a 
shifting definition will create uncertainty for both agency and 
broadband providers, for agencies denied applications for 
services they may argue is not broadband. And the question is, 
is there a better way to draft this definition? And, Ms. Gold, 
if I could start with you.
    Ms. Gold. We have argued before the FCC for the last year 
that they should get away from a speed measurement and they 
should be looking at the facility. Obviously, we have argued 
for a fiber-based facility because you can indefinitely expand 
the speed. I think that this constant resetting the goalpost 
has created some confusion. I think the Commission and Congress 
should be thinking long-term. What facility can deliver the 
broadband that this country will need 10, 15, 20 years from now 
rather than constantly arguing over what is the market-based 
speed that is acceptable because that is in a sense continual 
investment where one investment policy might be better.
    Mr. Latta. Mr. Bergmann?
    Mr. Bergmann. So I certainly share your observation that 
shifting broadband definitions make it challenging for 
providers to make decisions about whether to participate in 
federal programs.
    I certainly note as well, too, that when aspirational 
definitions are adopted, that can sometimes put those public 
policy goals out of line with the broadband that consumers are 
actually adopting in the marketplace.
    And I would note as well, too, that just last year when 
Congress spoke to a definition of broadband in the context of 
the farm bill, you all adopted a definition that was based on 4 
megabits down, 1 megabit up, and there is some benefit to 
having definitions that reflect what consumers are actually 
purchasing because it allows providers to have a mix of 
technologies, to meet needs in different parts of the country 
with different challenges. It also enables competition to help 
drive subsidies in support programs as well, too. So certainly 
appreciate any guidance on that as well.
    Mr. Latta. Thank you. Mr. Benedict?
    Mr. Benedict. Yes, well, we would agree that a general 
definition of a broadband facility would be more sensible than 
a definition tied to Section 706. The FCC already uses more 
than one definition of broadband, and frankly, the focus should 
be on the generic use of the facility, not the specific speed 
or character of the end product that might be provisioned by 
it.
    Mr. Latta. Ms. Socia?
    Ms. Socia. We might argue that primarily because we feel 
that our communities that are very rural, we really need to be 
thinking about how are we providing them with opportunities for 
education, for public safety, for transportation, for precision 
farming, for all the things that are so necessary now. And we 
think that definition is really helpful to folks in those 
communities to ensure that they end up with the opportunity to 
have the same resources as their friends across the country.
    Mr. Latta. Thank you. If I could follow up on a question 
that the gentlelady from Tennessee asked, Mr. Benedict, if I 
could ask you, the rural communities that are not adjacent to 
federal lands, how can we best encourage broadband development 
in high-cost areas without federal funding when you have these 
areas that are private lands next to federal? What would be the 
best way to go for those of you who don't get the federal 
funding?
    Mr. Benedict. Well, we actually typically cross federal 
lands to access communities that may be adjacent or even many 
miles down the road. We are not simply talking about local 
broadband facilities that are deployed on federal lands but 
also long-haul and middle-mile facilities that are necessary to 
reach those communities. We may have a long run through a 
national forest in order to connect one community to a major 
hub.
    Mr. Latta. And, Mr. Bergmann, if I could, with my last 25 
seconds, ask you, the environmental review process is very 
burdensome on federal lands. Is there a way to learn from the 
local review process when we are looking at the federal lands?
    Mr. Bergmann. Certainly. There are a number of challenges 
with the environmental review process, but certainly, an 
absence of deadlines is one of the chief challenges. So 
adopting a framework that is similar to what Congress did in 
the municipal side would be very helpful with that 
environmental review process as well, too.
    Mr. Latta. Thank you. And my time has expired.
    And the chair now recognizes the gentleman from Iowa for 5 
minutes.
    Mr. Loebsack. Thank you, Chairman.
    As I said earlier, I am really glad that the committee is 
addressing opportunities to expedite and streamline processes 
for build-out on federal property. It is very, very important. 
First thing I do want to say is I want to thank you, Ms. Socia, 
for your comments about rural broadband. I know I beat the same 
drum every time at these particular hearings, but given my 
district and it is not as big as Chairman Walden's by any 
means, but it is probably 12, 13,000 square miles, 24 counties 
in southeastern Iowa, and, you know, we do have some urban 
areas, got a town of 110,000, Davenport, about 100,000, 
110,000, but I have so much in my area that is rural. And it is 
very, very difficult.
    You mentioned the different aspects of not just economic 
development but challenges for the educational communities. I 
mentioned yesterday that a lot of our schools are connected to 
the ICN. That is the state-built pipeline, if you will, but a 
lot of those students, when they go home at night, they have 
homework and that homework often has to be accomplished, has to 
be finished on the internet. And they have very limited 
opportunities often to do that. So it is just so important.
    And I am glad you mentioned the agricultural part of this 
as well. A lot of folks don't know that, the precision farming 
that you mentioned. It is absolutely critical nowadays in many 
parts of this country that folks be able to have that kind of 
broadband so they can connect to the internet so they can do 
the things that they need to do.
    And I know that is not specifically what we are talking 
about here today, but at the same time, this is something that 
we have got to be thinking about whenever we talk about the 
expansion of broadband. And it is not just my district; it is 
all over the country obviously.
    I just have one brief question for Mr. Bergmann, although 
before I forget, I should thank Ms. Eshoo again for her ``Dig 
Once'' legislation. Often, it is not the case in this body that 
we think very rationally about how to resolve issues it seems 
like. This is a total no-brainer and it has taken since 2009. 
It makes no sense to me for it to become this important and be 
before us so that we can deal with it.
    But at any rate, Mr. Bergmann, you mentioned some of the 
benefits that could accrue to the Federal Government, in 
particular, if we can improve access for siting on federal 
properties. Can you elaborate on that a little bit if you can?
    Mr. Bergmann. So thank you. And we are certainly supporters 
of the ``Dig Once'' legislation as well, too, supporters of 
robust fiber. But as you know, you can't plug fiber into a 
school bus that is taking kids home in a rural area, but you 
can have an LTE connection so that kids in rural areas can take 
advantage of mobile wireless networks and the innovations that 
we are doing right now, whether it is m-learning, m-health, 
remote monitoring for your elderly in rural communities. There 
are some real opportunities. And access to federal properties 
in rural areas is a really critical issue.
    So the steps that we have talked about today, establishing 
deadlines, making sure that reviews happen in parallel rather 
than one after the next, making sure that fees are related to 
the actual impact rather than just sort of other goals are all 
important steps that this subcommittee can take to promote that 
sort of wireless infrastructure in rural areas.
    Mr. Loebsack. I think a lot of what we are doing is 
creating efficiencies, and sometimes people don't think of 
government being particularly efficient, but there are ways 
that we can do this, there is no question about that, and maybe 
even save taxpayers some dollars along the way.
    You did mention, I think, in your testimony on page 3 that 
there would be revenue for the Federal Government. Can you talk 
about that a little bit as well?
    Mr. Bergmann. Sure. So whenever there is siting on federal 
lands, we are not asking for that access for free.
    Mr. Loebsack. Right.
    Mr. Bergmann. We pay for that access. And so it produces 
revenue for the government when we are able to put those 
facilities on federal lands.
    Mr. Loebsack. Is there any estimate as to how much that 
might be at this point?
    Mr. Bergmann. We would be happy to work with you to get 
back with your staff to see if can provide some of that 
information.
    Mr. Loebsack. OK. Thank you. Thank you, Mr. Chair. I yield 
back the remainder of my time.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back. And the chair now recognizes the gentleman from New 
Jersey for 5 minutes.
    Mr. Lance. Thank you, Mr. Chairman.
    Ms. Gold, when your member companies decide to trench fiber 
in a new location, I am sure that you calculate the cost 
associated with that. Do you also project possible delays in 
whether the deployment will be outweighed by the fact that it 
may take so long, and therefore, it is not economically 
feasible?
    Ms. Gold. For many of my members they are operating as 
local entities, and so they go ahead and they do a feasibility 
study----
    Mr. Lance. Feasibility study, yes.
    Ms. Gold [continuing]. And the time and cost are critical 
components of that feasibility study. So with my one member 
that was building a middle-mile network, they had no idea it 
was going to double the time it took to put in the federal 
permitting in the 8 miles. But for anybody going into a local 
community to actually do fiber to the home, time and cost are 
critical. So a private company may decide not to go to a 
community if there are sufficient constraints on how long it 
will take.
    Mr. Lance. And is it your experience that this is often the 
case, that where the projects are either delayed or do not 
reach fruition because of that?
    Ms. Gold. It is hard for me to answer that because the 
projects we see are where they are moving ahead. In other 
words, the community has already determined that they want this 
asset, and so they are working to make it come about as 
expeditiously as possible. Obviously, when they have to cross 
federal property and there is a delay, that is a fly in the 
ointment but----
    Mr. Lance. Your universe, therefore, may not be the 
complete universe because----
    Ms. Gold. Correct.
    Mr. Lance [continuing]. Of projects that you do not see 
because they have been abandoned?
    Ms. Gold. Exactly.
    Mr. Lance. Is there anyone else on the panel who would like 
to comment?
    Ms. Socia. I would mention that----
    Mr. Lance. Ms. Socia?
    Ms. Socia. Yes, thank you. In some cases our members have 
found that there has been a significant delay for one project, 
and in the next project they therefore choose not to go on 
federal lands and to instead really increase the cost by doing 
a workaround.
    Mr. Lance. I see.
    Ms. Socia. And so it really is problematic for a lot of the 
communities that we support.
    Mr. Lance. And Mr. Benedict?
    Mr. Benedict. We have run into similar situations. And if 
the cost or delay of securing that federal right-of-way gets to 
the point that it is unacceptable, if we find another way 
around, we are talking about a longer route. Our projects are 
typically budget-limited, which means that we have to scale 
back the amount of build-out in that local community. That 
basically means that there are houses, possibly businesses in 
that community that would have been upgraded that we now can't.
     Mr. Lance. Thank you. In your testimony, Mr. Benedict, you 
state, ``CenturyLink is compelled by law to make its poles 
available to other providers, even competitors at modest cost-
based rates. Yet co-ops, munis, and public utility districts 
routinely deny us access and demand grossly unreasonably rates. 
Congress should act to create a level playing field, and 
consequently, CenturyLink supports the committee's plans for 
legislation on access to poles, ducts, and conduit.'' Could you 
go into a little greater detail on that?
    Mr. Benedict. Yes, certainly. The problem isn't universal, 
but it is too often the case that with co-operatives, public 
utility districts, municipalities that have their own poles, we 
have no clear legal right to attach and there is no state or 
federal oversight of the rates, terms, and conditions. And that 
can and does lead to unreasonable situations.
    We have had a recent case where we were threatened with the 
removal of poles by a co-op and disconnection of power at our 
central office unless we accepted a huge increase in rental 
rate. And that type of, frankly, extortion is something that 
shouldn't be happening in this marketplace.
    Mr. Lance. And this is an area of law with which I am not 
completely familiar. Are these matters governed by state boards 
of public utility or not?
    Mr. Benedict. When you are talking about municipalities and 
co-ops, as a general rule, no, they are not subject to state 
oversight and they are not subject to FCC oversight. And that 
frankly is a problem we would suggest Congress help correct.
    Mr. Lance. Thank you very much. I am interested in this 
topic and hope to be able to follow up.
    Thank you, Mr. Chairman.
    Mr. Latta. Thank you. The gentleman yields back.
    And the chair now recognizes for 5 minutes the gentlelady 
from California.
    Ms. Matsui. Thank you, Mr. Chairman.
    Ms. Gold, you spoke about the importance that localities 
can play in accelerating their deployments. In my congressional 
district in Sacramento, as part of our light rail expansion, 
the fiber backbone was installed. And I also have to reflect on 
what my colleague Mr. Loebsack mentioned about schools and the 
connections. I say this because I represent an urban area, yet 
I am hoping that this fiber that is already in the light rail 
expansion that it really connects to community colleges. There 
is a lot of territory in between which is economically 
depressed, and I would like to leverage this fiber that the 
expansion has provided here, so I am asking you, how can we 
best encourage broadband providers to leverage this fiber?
    Ms. Gold. So we have seen in several situations where the 
availability of a robust middle-mile network, often the cost--
and I think CenturyLink testified to this. The cost of getting 
to a community can be as expensive as building it out. Once you 
have the access, the middle-mile access which you now have, 
that helps incent fiber deployment actually to the premises.
    There are several models, as Ms. Socia said. There is no 
one model for every community. We have found demand aggregation 
models, which was the big innovation that Google brought to 
play, has worked very well even in lower income areas. One of 
my members is building out the State of Mississippi, and they 
are going to towns as small as 3,200 constituents. And they 
have done it by using their middle-mile network and then 
actually building a demand aggregation model in that community 
where people all sign up. They pre-sign----
    Ms. Matsui. Yes.
    Ms. Gold [continuing]. So people know exactly where they 
are going to go.
    Communities have a lot of assets in place, such as access 
to building for central offices. They have the common conduit 
where a fiber provider could pull fiber. So these are the kind 
of assets that a community needs to have an inventory of such 
as we need an inventory of federal assets.
    Ms. Matsui. Community assets inventories we are talking 
about, so if we identify, for instance, some anchor 
institutions like libraries and particular schools that might 
be strong, those might be assets----
    Ms. Gold. Yes.
    Ms. Matsui [continuing]. That we could leverage.
    Ms. Gold. Absolutely, especially if they need fiber access 
because then you can get funding to help build those, which 
releases more financial availability to actually build to the 
homes.
    Ms. Matsui. OK. That is good. Thank you.
    Ms. Gold, you also endorse the concept of the inventory of 
the federal assets on which broadband can be attached or 
installed. Will using these existing assets drive down the cost 
of expansion of fiber networks?
    Ms. Gold. I think it is very important for any fiber 
deployer, be it local or long-haul, to know where they are 
going and what is available to access. And yes, that will drive 
down the cost of a feasibility study, it will release then more 
funds to actually put the fiber in the ground.
    Ms. Matsui. OK. Great. Mr. Bergmann, when it comes to 
broadband, we know that increasingly consumers are relying on 
wireless, and this is especially true for our minority 
populations and low-income Americans. What are the biggest 
barriers to wireless broadband infrastructure deployment?
    Mr. Bergmann. So, Congresswoman, I think you are exactly 
right. We see the same thing, which is that minority and low-
income consumers are active adopters of mobile wireless and 
mobile broadband. They tend to have mobile broadband as their 
primary connection to the internet; they tend to be heavy users 
of the mobile internet.
    So as we look to upgrade our networks, we are trying to 
make sure that we can provide all of the services that our 
consumers want. And so a big part of that is building out these 
next-generation networks that have much higher capacity. And so 
being able to do things like to deploy DAS and small cells, 
which are much smaller than traditional macro sites but allow 
us to provide that kind of capacity is really critical.
    The FCC is working on a proceeding right now to speed up 
the deployment of those small cells, and we think that is 
really helpful. We have appreciated the opportunity and 
continue to work with the FCC.
    We certainly think that this committee could help by 
putting a hard deadline in there for that proceeding, and that 
would be consistent with what the FCC is doing. They have 
endeavored to complete the proceeding by this time next year, 
and we are hopeful that that will happen. We will address some 
of those barriers that you talked about.
    Ms. Matsui. OK. Thank you. And today, we are basically 
talking about physical infrastructure, but I am also focusing 
on making more spectrum available because we know spectrum is 
really the invisible infrastructure needed for robust wireless 
networks. So what impact does access to the spectrum have on 
the broadband infrastructure deployment?
    Mr. Bergmann. So I completely agree with you. It is a 
symbiotic relationship between spectrum and infrastructure. We 
absolutely need the infrastructure to build out the spectrum. 
We have talked and certainly applaud your leadership, 
Congressman Guthrie's leadership in creating incentives for 
federal agencies to make spectrum available.
    We really believe that you need to have low-band spectrum, 
mid-band spectrum, high-band spectrum. As you start to deploy 
in those higher bands, infrastructure becomes even more 
important. Those bands tend to propagate in much smaller areas, 
so you really need to have a dense network. If we are going to 
be the leaders in 5G, if we are going to be the leaders in the 
Internet of Things, maintain that global edge, we need to make 
sure that we have those dense networks and that we are able to 
build out that infrastructure quickly.
    Ms. Matsui. OK. Fine, thank you. And I yield back.
    Mr. Latta. The gentlelady yields back.
    The chair now recognizes the gentleman from Texas for 5 
minutes.
    Mr. Olson. I thank the chair. And welcome to all four 
witnesses.
    Once you cross the Mississippi River to Arizona heading 
West, most of that land is controlled by the Federal 
Government. There is one exception, my home State of Texas, 
almost all private land, but that is because we were a nation, 
a Republic before we became State.
    To maximize broadband access, we need commonsense actions 
that balance jobs and growth with expense and the environment. 
And rural access is important. For example, my home State of 
Texas has a state law that guarantees access to state 
universities for people graduating from high school depending 
upon their GPA, their standing in their class. That sounds 
great, but what happens sometimes, kids from rural schools 
don't have the technology to succeed. They go to a great school 
like University of Texas and can't compete because they didn't 
have that opportunity in high school. So rural access is 
important.
    And if we all dig on federal land or highways for broadband 
access, a whole swarm of agencies pop up: EPA, the Corps of 
Engineers, Bureau of Land Management, National Park Service, 
Department of Transportation, FCC, Department of Defense with 
the Army, the Marine Corps, the Navy, and the Air Force 
involved, Fish and Wildlife Service, Department of the 
Interior, Department of Agriculture, and on and on and on. Over 
and over, say, for example, BLM says good to go, EPA or Fish 
and Wildlife Service says stop, object, no, don't move forward. 
We all want growth, and that means a lean, mean federal machine 
for permits.
    So my question is for each of you, you can be the king or 
the queen. Ms. Gold, you are the queen today. If you had to 
pick among offenders, which federal agency generates the 
biggest problems for your organization, and how should we fix 
that? Pick one out, ma'am. You are the queen.
    Ms. Gold. I don't think there is anyone because in every 
situation it is somebody else that is--it could be the U.S. 
Forest, it could be the Bureau of Indian Affairs. There is 
just--such a panoply of agencies control permitting and federal 
properties. I would be hard-pressed to say there is one.
    Mr. Olson. That is scary.
    King Bergmann.
    Mr. Bergmann. I would simply echo----
    [Audio malfunction in hearing room.]
    Mr. Bergmann [continuing]. Range of those agencies that you 
mentioned. Just by contrast, in the municipal environment 
Congress and the FCC have imposed deadlines of 60 days, 90 
days, 150 days. In the federal space, we regularly see delays 
of 2 to 4 years and sometimes even longer than that. So the 
steps that this committee is taking to apply some deadlines 
consistently across agencies would be very helpful.
    Mr. Olson. King Benedict, your call, sir.
    Mr. Benedict. Yes, I sort of hate to point fingers. 
Frankly, we endure the same problems with all of the agencies, 
and in some instances it is not because of circumstances 
employees can control. And if you are talking about dealing 
with an emergency like wildfires, then everything tends to be 
back-burnered.
    But, that said, we do think that some offices seem to be 
quicker than others, but all across the board we face similar 
problems and unreasonable delays. And if it is good now, 6 
months from now we may be facing similar backlogs because some 
employees have, you know, gone on leave or some other crisis 
has crowded out our broadband applications.
    Mr. Olson. Queen Socia.
    Ms. Socia. I like being queen. Thank you so much. I will 
echo my co-panelists' comments that there doesn't seem to be 
any one agency that is really problematic, that it is much more 
endemic to the larger group.
    Mr. Olson. Well, thank you. I am running out of time. I 
yield back the balance of my time.
    Mr. Latta. Thank you very much. The gentleman yields back.
    And the chair now recognizes the gentlelady from New York 
for 5 minutes.
    Ms. Clarke. I thank you, Mr. Chairman. I thank the ranking 
member. I thank our panelists for really honing in on today's 
subject matter. It is helpful for us to have a deeper 
understanding of what broadband deployment in relation to the 
Federal Government and the private sector really means for our 
constituents.
    My first question is to Ms. Socia. While it might seem 
obvious that access to high-speed broadband is essential for 
consumers, I have seen some reports where some don't hold that 
view. Indeed, there are some members on this very committee 
that don't hold that view. How do you respond to those that 
don't believe that broadband is critical or an essential 
infrastructure?
    Ms. Socia. I would start by sharing that I was an educator 
for a long time, so for me, education of our children should be 
a primary responsibility. And so much of what we use now in 
education to provide good services to children involves 
technology. And I will further say that in rural communities it 
is even that much more important. If your child would like to 
take a course that is not available in that small school, they 
can go online and take a course, but only if it is available.
    I will add that precision farming, as I mentioned before, 
is very important in our rural areas, and in particular in 
communities that are drought-stricken that it has really added 
efficiencies that have been really helpful.
    It helps our communities with things like transportation. 
It is essential for public safety. And these all go beyond the 
obvious economic development part of this problem. You can't 
possibly get a job or maintain a job without access these days, 
and I think that we need to be pretty clear about it being 
essential infrastructure.
    Ms. Clarke. So when we hear the argument that the market 
has to determine that, what would you say moving forward in the 
21st century that would mean for our nation quite frankly?
    Ms. Socia. And I would say that there may have been similar 
comments when we were bringing electricity across the country 
and we wouldn't have that question today about electricity 
being a market problem. And I think that broadband at this 
point we are coming to the place where we need to think of it 
in the same way, that it is essential infrastructure and that 
we need all hands on deck, and that if the market can't solve 
the problem, then we need to figure out how to solve the 
problem.
    Ms. Clarke. In one of the discussion drafts we offered 
today, we create an inventory of federal property and real 
property that can be used to help deploy broadband 
infrastructure. In addition, this draft would also permit local 
and municipal governments to add their existing facilities to 
the inventory so they might be better utilized by broadband 
developers. Would your members be interested in having their 
infrastructure added to such an inventory?
    Ms. Socia. I don't think they are adverse to doing so. I 
think the problem would be that our communities and many of the 
smaller utilities are so tiny and so lean and their information 
is on paper only that such an obligation could be really an 
undue problem for that particular group. We are happy when 
folks come to our communities and ask for information, and we 
readily share it, but generally, it is person to person, 
somebody walks in the office and we can share with you where 
those assets are.
    We do, however, encourage our communities to be fiber-
ready, to identify those assets, to be ready to move forward in 
the marketplace however they choose to move forward.
    Ms. Clarke. Is there currently coordination between 
Federal, state, local governments, and would this discussion 
draft help foster that sort of cooperation?
    Ms. Socia. I imagine the draft will certainly foster that 
sort of cooperation.
    Ms. Clarke. OK. Very well. Mr. Chairman, I yield back the 
balance of my time.
    Mr. Latta. Thank you. The gentlelady yields back.
    And the chair now recognizes the gentleman from Illinois 
for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you all for 
being here. I appreciate it. Hopefully, I won't take all 5 
minutes. It depends on you guys.
    So, Mr. Benedict, you speak briefly in your statement 
regarding the problems in locating facilities on military 
bases. How does that process usually go, and what delays do you 
typically encounter?
    Mr. Benedict. Well, the delays we run into in crossing 
federal lands that are managed by Department of Defense units 
are akin to what we see in other federal lands. We are running 
into the same NEPA reviews, we are running into the same 106 
reviews, but we also have some peculiar problems, and on 
occasion we have run into undue fees for accessing buildings or 
putting facilities onsite----
    Mr. Kinzinger. Can you explain like undue fees?
    Mr. Benedict. Well, it is just, for example, we were 
assessed something on the order of $30,000 to put in a small 
central office facility on one particular base that it was just 
not something we were expecting.
    Mr. Kinzinger. Yes.
    Mr. Benedict. And these units, like other agencies, see an 
obligation to recover costs and apply fees for permitting 
applications. And all of those add up.
    Mr. Kinzinger. So who loses when a company like CenturyLink 
is unable to deploy on a military base?
    Mr. Benedict. Well, one of our, you know, major customers, 
of course, are military agencies. We also provide broadband and 
voice service to military residents in military facilities. So 
anything we can do to make the cost and the timely access of 
our facilities to those communities is important.
    Mr. Kinzinger. Yes. Mr. Bergmann, one of the staff drafts 
addresses deployment on DOD properties. Why is this important 
to your members, and how could enhanced deployment on these 
properties benefit the armed services?
    Mr. Bergmann. So, Congressman, thank you. Certainly, two 
ways leap to mind. One is as the Department of Defense looks to 
commercial off-the-shelf solutions, right, which are 
innovative, world-leading, often more cost-effective, having 
wireless facilities on DOD bases can help that.
    Certainly, another way is if you look at the personnel on a 
typical military base often very youthful, right, and we know 
that the young adults in this country certainly are big 
adopters of mobile broadband. So if we are looking to promote 
the quality of life for the men and women who are members of 
the armed services, making sure that there are robust mobile 
services there is a great way to do it.
    Mr. Kinzinger. So I am still an active guardsman so I still 
fly planes, do military duty. I can't think of one time I have 
ever been on a military base where there has been available 
wireless access. It is all--maybe there is a caf AE1e on base 
that has some kind of a thing but I have never--at least that I 
know of never been on one where there was wireless available, 
which is to me kind of astonishing.
    And you also mentioned in your testimony in 2012 Congress 
provide relief to expedite modification requests for eligible 
facilities. Is that working well, and are these changes having 
a positive impact on speed of siting?
    Mr. Bergmann. So that law has been very effective in 
helping us deploy co-locations so where we are adding onto an 
existing site, making sure that we have timelines so that that 
happens quickly. And we are certainly seeing the benefits of 
that. We believe that there is more that can be done to further 
streamline that municipal process. We talked a little bit about 
the small cell deployments, and that is another area where we 
are working with the Commission and certainly appreciate this 
subcommittee's guidance. The lessons of the 2012 act, the 
deadlines have been very helpful in the process.
    Mr. Kinzinger. OK. Great.
    Does anybody else have anything to add to that? Otherwise, 
I will yield back. Thank you.
    Mr. Latta. The gentleman yields back.
    The Chair now recognizes the gentleman from New Mexico for 
5 minutes.
    Mr. Lujan. Thank you very much, Mr. Chairman.
    Ms. Gold, as you know, one of the draft bills proposes to 
create a database of federal assets that can be used to support 
broadband deployment, a proposal that was also endorsed by the 
White House's Broadband Opportunity Council. Can you quickly 
share how this database would support our efforts to expand 
access to rural and tribal communities, as well as penetration 
elsewhere?
    Ms. Gold. If you take the database and you couple it with 
more expedited permitting, all of a sudden people are going to 
know where there are assets that they can use to attach fiber 
or conduit they can use to pull fiber or attach wireless 
devices. Right now it is a real hodgepodge of trying to figure 
out who controls the property where and who you need to go to 
to get permission to have access to it. If you have that 
someplace logically and easily accessible, it makes the 
building process much better and more rapid, especially if you 
couple that with some sort of a shot clock on permitting.
    Mr. Lujan. I appreciate that. And, Mr. Benedict, do you 
believe that the discussion bills before us would advance 
infrastructure build-out by the private sector? Do the bills 
strike the correct balance to successfully address some of the 
roadblocks you face in New Mexico and elsewhere when it comes 
to applying for a permit from entities like the BLM?
    Mr. Benedict. Yes, we think so.
    Mr. Lujan. There has been a lot of conversation from some 
of our colleagues, as well as with our witnesses today 
pertaining to how we work closer with our electric cooperatives 
as well. Ms. Socia, I appreciate your observation that if 
market forces would have driven the wiring of electricity 
across America, rural parts of America that grow most of our 
food would have been left out. We wouldn't have electricity 
running to these parts of the country. But with that being 
said, we also see the benefit of rural utility service and 
other aspects that help deploy those services.
    Mr. Benedict, can you touch on the importance of making 
sure that if we indeed are going to touch rural parts of 
America, how a partnership with the rural electric cooperatives 
with a co-locate is essential to that? Last time I looked at a 
map of where those electricity lines ran, it was mostly rural 
parts of America.
    Mr. Benedict. Yes, and we actually have facilities and 
provide voice and broadband in much of rural America.
    And I don't mean to suggest that there is any antagonism 
between us and the cooperative community or municipalities for 
that matter, municipal systems. We actually have cooperative 
arrangements with a great many. Our concern is that there are 
some that in effect use their position to wring some additional 
revenue out of attachments beyond anything that we would 
consider truly a compensatory rate.
    We, as a pole owner, fully appreciate that no party should 
be expecting to have access to poles or conduit at rates that 
are not compensatory.
    Mr. Lujan. But you said something earlier that investor-
owned utilities are required by the FCC to consider these co-
locates for fiber connectivity but that others may not be 
required to do that. Can you expand on that?
    Mr. Benedict. Well, under FCC rules, unless a state has 
asserted oversight, investor-owned utilities are subject to an 
FCC regime, as are we, as an ILEC, that mandate cost-based 
rates. And that provides a basis for apportioning and 
allocating costs. So it doesn't necessarily mean we are the 
cheapest non-power attacher, but it provides a basis for 
ensuring that there is more predictable and more reasonable 
rates applied and that some of the potential abuses that we 
have experienced don't recur.
    Cooperatives and municipal poles aren't subject to that 
regime. They are not subject to FCC oversight and they need 
not----
    Mr. Lujan. If I just may interrupt here, I apologize, Mr. 
Benedict, as time is running short. I just hope that that 
prompts us to look at this because, look, if we are going to 
cover rural parts of America, we should look at all the assets 
that we have to be able to move into this realm as well. And 
being a former public utility commissioner, I understand the 
constraints that exist, whether it is at public utility 
commission levels, it is at FERC, PURPA, FCC, whatever it may 
be. Let's bring this into a realm we have an opportunity. And 
to complement again the ``Dig Once'' legislation, I appreciate 
Mr. Loebsack's assessment of this, Ms. Eshoo, that this is a 
commonsense approach.
    I would hope that also as we look at utility easements, as 
they are engaged with each and every one of you, whether it is 
water, electricity, telecom, natural gas through these 
easements with federal partners, including the BIA, that once 
one easement is approved for water, then when the next one 
comes in under electricity or telecom, that those same 
approvals that were put in place once can be put in there and 
maybe you can enter a cost-share with one another so you are 
not having to do this repeatedly.
    And then, Mr. Chairman, lastly, I know time is running out, 
but I hope that we can have a conversation to some of the 
disincentives that exist when we talk about distribution versus 
transmission, as I would describe it, where you are providing 
connectivity or power for a community as described and required 
by federal law, especially into tribal communities, but then 
you enter into going into those communities but then you incur 
liability to have to provide service. We need to have this 
conversation, which is a rulemaking currently before the BIA 
and to see how it intersects with these conversations not only 
for broadband and communication penetration but for providing 
power and water.
    So thank you for the indulgence, Mr. Chairman, and I 
appreciate the witnesses and the hearing today.
    Mr. Latta. Well, thank you very much. The gentleman's time 
has expired.
    The chair now recognizes for 5 minutes the gentleman from 
southeastern Ohio.
    Mr. Johnson. Thank you very much, Mr. Chairman. And I thank 
the panel for being with us today. Thank you very much.
    Mr. Bergmann, I understand that when one of your members is 
sitting on a piece of land or a building governed by a 
municipal zoning authority, there is a shot clock imposed by 
the FCC that gets you a yes or a no within 150 days. But when 
one of your members wants to put a tower on a piece of real 
estate controlled by the Defense Department, that approval 
process can take multiple years. With the understanding that 
there are certainly sensitive sites where it might not make 
national security sense to deploy commercial wireless 
infrastructure, aren't there many other situations where 
improved commercial wireless access could improve the quality 
of life for those people living on the DOD facility and in some 
cases where that same commercial access could improve the DOD's 
ability to leverage commercial off-the-shelf technology to 
achieve its mission at a lower cost?
    Mr. Bergmann. I think you are exactly right, Congressman. 
In the municipal context the deadlines are 150 days, 90 days, 
and 60 days, recognizing that where we are adding facilities 
where they already exist, the timelines should be even shorter, 
and contrast that to our experience with the Federal Government 
where delays are routinely between 2 and 4 years. There are 
tremendous opportunities here to move more quickly and to 
deliver the sorts of benefits that you described, enabling our 
military to take advantage of commercial off-the-shelf 
solutions and improving the quality of life for the men and 
women who serve in the armed services.
    Mr. Johnson. Do you know what drives that complicated, long 
timeline? What is it? Is it the paperwork or just slowness? 
What is your thought?
    Mr. Bergmann. So I certainly think deadlines are a helpful 
construct, also making sure that when we are doing more than 
one review, if you are doing an environmental review as well, 
too, or in the context of military facilities doing a spectrum 
review, that we try to do those reviews in parallel as opposed 
to sequentially, and that that will help considerably as well, 
too.
    Mr. Johnson. OK. Ms. Gold, the Broadband Opportunity 
Council that the President created called for an inventory of 
federal assets such as the one contemplated by one of our draft 
bills. In your opinion, how does this help would-be network 
builders?
    Ms. Gold. It is very important to know where assets are 
available that you can use. Just such as we encourage every 
community to do an asset inventory, we would like to have such 
an asset inventory from the Federal Government because that 
would help us understand where we need to go to get permission 
to cross federal land or where there may be conduit or where 
there may be federal poles that we can use to attach fiber or 
pole fiber. It all helps expedite the process. And this is 
basically a construction project, so time is money. And I think 
that having legislative authority behind the Broadband 
Opportunity Council recommendation would be very helpful.
    Mr. Johnson. OK. Mr. Bergmann, back to you, and I just 
thought of this. Do you have any examples--and if you don't, 
that is fine--but do you have any examples of any of those 
unreasonably long DOD approval processes where it could have 
brought some really positive advantages to the community?
    Mr. Bergmann. So we do have examples across a variety of 
different agencies, and we would be happy to share those with 
you and happy to work with your staff to give you those 
examples.
    Mr. Johnson. If we could see those, that would be great.
    All right. Mr. Chairman, I yield back the remainder of my 
time.
    Mr. Latta. Thank you. The gentleman yields back.
    The chair now recognizes the gentleman from Illinois for 5 
minutes.
    Mr. Rush. Thank you, Mr. Chairman. And I want to thank the 
witnesses for being here today.
    Mr. Chairman, I want to ask Ms. Socia. In July, your 
organization released a comprehensive policy agenda 
recommending the ``Dig Once'' approaches to spur broadband 
deployment. And in my city in the county region of Cook County, 
we have a lot of railroad tracks, and we have over 3,000 public 
highway railroad crossings. And I would just like to know what 
are some of your frustrations that you have found that you have 
heard of that you might be aware of regarding access to 
railroad rights-of-way.
    Ms. Socia. Our members actually find the railroads 
particularly difficult to work with with regard to getting a 
right-of-way to build under a railway. The timeline has been 
fairly long and the expense very high. It would be really 
helpful if there were a ``Dig Once'' policy that provided that 
resource available to anyone who needed to use it to pull fiber 
through, could save significant amount of time and money for 
our members.
    Mr. Rush. Have there been any discussions at all with some 
of the railroad companies? Are they implacable in terms of them 
cooperating or have there been any discussions that you all are 
aware of with any railroad companies?
    Ms. Socia. I couldn't speak specifically to that, but I 
would be happy to ask my members for specifics and get back to 
you.
    Mr. Rush. OK. Now, this is a question that may or may not 
have been answered already, but it is dealing with the 
historical preservation review process for the twilight towers. 
Mr. Bergmann, do you have any idea, are there any impediments 
to the deployment of broadband to these twilight towers?
    Mr. Bergmann. So thank you, Congressman. So there are a 
group of towers that were built over a decade ago during a time 
when the historic preservation laws were unclear that exist out 
there today and that are not eligible for the streamlined 
treatment that this subcommittee and Congress helped provide 
for in the 2012 Spectrum Act. So we are working closely with 
the Commission right now to develop a resolution so that we can 
put those twilight towers to good use, but we would certainly 
appreciate any guidance from this subcommittee to make clear 
that towers that exist that have been out there for 10 years 
and that don't have objections are not required for approval 
under the National Historic Preservation Act.
    Mr. Rush. Thank you. Thank you, Mr. Chairman. I yield back.
    Mr. Latta. The gentleman yields back, and the chair now 
recognizes the gentleman from Florida for 5 minutes.
    Mr. Bilirakis. Thank you. I appreciate it, Mr. Chairman.
    Mr. Bergmann, thank you for joining us here today. I have a 
few quick questions for you. We all want to protect the 
environment and preserve scenic views and natural areas. To 
what extent do today's modern infrastructure technologies 
impact the surrounding environment?
    Mr. Bergmann. So thank you. So certainly one of the things 
that we see is a move toward much more small cell deployment, 
which is a fraction of the size. It tends to have a much 
smaller impact. And so one of the things that we are working to 
do is to try to make sure that the review process reflects that 
lighter impact. So that is a big part of the small cell 
deployment over at the FCC right now. And we would certainly 
like to make sure that we are able to move forward with that 
because, as you know, when we are able to deploy our service in 
those areas, we are not just taking advantage of that land, we 
are providing service to the folks who go into those areas. 
Whether they are rural communities, whether they are parks, we 
are making service available there as well, too.
    Mr. Bilirakis. Thank you. And I understand that using a 
DAS--distributed antenna system--reduces the need for new 
towers, is that correct?
    Mr. Bergmann. That is absolutely correct. These are 
typically placed on existing towers and are used to improve 
coverage or to improve capacity so that we have better quality 
services there.
    Mr. Bilirakis. Thank you. Has there been adequate 
streamlining of the FCC environmental and historic preservation 
review procedures? What has been your experience so far on that 
and what remains to be done?
    Mr. Bergmann. So the Commission has launched a proceeding 
to streamline that process, particularly for small cells and 
DAS systems, and we are certainly supportive of that effort and 
would like to make sure that it is completed in a timely 
fashion.
    Mr. Bilirakis. Thank you. A question for Ms. Socia--welcome 
back to our subcommittee--can you explain a bit more about how 
streamlined infrastructure protocols on Federal land like at 
the MacDill Air Force Base in the Tampa area, how it can help 
programs like your Next Century Cities more efficiently meet 
their goals?
    Ms. Socia. I think in building out public safety systems it 
is really important that there be a timely response to requests 
for permitting on those sites, and I think that is also 
accurate even in our more urban areas where there are federal 
buildings located in areas that our cities have had to work 
around in order to provide service to their citizens, free Wi-
Fi or public safety.
    Mr. Bilirakis. Thank you. And, Mr. Benedict, just for my 
clarification, can you describe your view that railroad 
companies have unrealistic expectations about their rights to 
public corridors? Is that a question of statutory 
interpretation or maybe a general question of enforcement?
    Mr. Benedict. Well, it is a question of the statute not 
having been as clear as it might have been. Many of these 
rights-of-way have been in place for a very, very long time. 
And the real question is are we entitled to access? Are we 
entitled to place in the ballast what rates would be reasonable 
to expect?
    We also have problems with railroad crossings, just as Ms. 
Socia described, and we would like to think that these could be 
more easily worked out with a clear directive from Congress 
that the holders of railroad right-of-way granted by the 
Federal Government must provide reasonable access on reasonable 
terms and conditions.
    Mr. Bilirakis. Thank you very much for the suggestion.
    I yield back, Mr. Chairman. I appreciate it.
    Mr. Latta. Thank you. The gentleman yields back the balance 
of his time.
    At this time the chair recognizes the gentleman from 
Missouri for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And, Ms. Gold, this first question is kind of a sticky 
wicket. The electric utilities say that the statutory rate for 
cable attachment on poles is a subsidized rate that ultimately 
will result in electric utility ratepayers subsidizing 
broadband build-out. I have got a two-part question, and this 
is where the sticky wicket comes in. What is your response to 
that argument, and how should we balance the rights of 
homeowners and pole attachers in order to continue to encourage 
both pole ownership and broadband build-out?
    Ms. Gold. So in fact the Supreme Court found in 1987 that 
the cable rate formula adopted by the FCC provides pole owners 
with adequate compensation, and it did not result in an 
unconstitutional taking. The cable rate, as it is set up today, 
charges the cable owner just for that part of the pole which 
they use.
    I would argue that any attacher to the pole should only be 
assessed the same rate. Right now, because we have all 
attachers under two different regulatory regimes--we have the 
telecom attachers and the cable attachers--we go through 
regulatory gymnastics to try to come up with a rate that is the 
same for both. If we instead say there was going to be a common 
rate set for any attacher to a pole, then we wouldn't be going 
through this whole discussion.
    And in fact, because the cable rate that--we always default 
and say it should be the cable rate because that was found 
years ago to be compensatory. I certainly think we would all 
welcome some further proceeding that might look at pole 
attachment rates, but for all attachers on a common basis, 
regardless of whether you are a cable company or a telecom 
company, because basically we are all putting up a cable of 
some kind, so they should be equal.
    Mr. Long. Yes. What year was that ruling again?
    Ms. Gold. Eighty-seven.
    Mr. Long. So the answer to my second question, how do we 
encourage both pole ownership and broadband build-out? That is 
your suggestion?
    Ms. Gold. I think we need to--there are two aspects to 
using the poles. It is not just the rental rate, but we also 
need to look at make-ready costs. This is an area that has 
really become a problem for new fiber deployers. When they try 
to get on a pole, the costs can vary widely. If a pole has 
violations on it from a previous attacher, often the investor-
owned utility, which are the ones that are most regulated 
today, will argue that that violation needs to be corrected by 
the new entrant prior to their attaching to a pole. Obviously, 
we don't want to discourage new fiber deployment by making new 
entrants pay for some old attacher's violation.
    So I think there are a whole host of issues. I think 
equalizing the rates and looking at make-ready costs on a 
nondiscriminatory cost basis would be very helpful to further 
fiber deployment.
    Mr. Long. OK. My next question is a two-part question for 
two different people. Start with Mr. Benedict and then I have 
got a follow-up for Mr. Bergmann.
    Mr. Benedict, one of our bills requires the FCC to assume a 
lead role on Section 106 historical preservation reviews that 
are required in most federal undertakings. As I understand it, 
the draft bill would help eliminate duplicative reviews by 
other agencies. In your opinion, would this help speed 
deployment?
    Mr. Benedict. Yes, we believe it would. In fact, this would 
be an expansion of what Congress has already done with MAP-21 
with the Department of Transportation agencies.
    Mr. Long. OK. And then, Mr. Bergmann, how does this help 
with tower siting?
    Mr. Bergmann. So it would certainly help in our ability to 
deploy the sorts of next-generation technologies like DAS and 
small cells that are going to be used to improve both coverage 
and capacity. So as we try to think about moving towards 5G 
networks, maintaining our global leadership, the ability to do 
that quickly will be extremely important.
    Mr. Long. OK. And then, Ms. Socia, one for you, do you 
recommend to towns looking to deploy fiber that they collect a 
map of assets, conduit poles, ducts, buildings, utility 
cabinets, and offer access to the broadband provider at a cost-
based rate?
    Ms. Socia. We recommend that all of our communities do an 
asset inventory and really create a circumstance whereby their 
city is fiber-ready, whether they choose to build themselves, 
work with a partner, create an open-access network, or enter 
into a public-private partnership. We feel like having that 
information ready is definitely a helpful step in making this 
deployment happen faster.
    Mr. Long. OK. I am asking because I would like to know if 
the Federal Government should do the same, but I am out of 
time. I don't have any time, but if I did, I would sure yield 
it back.
    Mr. Latta. Well, in that case, the gentleman's time has 
expired.
    And I am going to turn to the ranking member if she would 
like a point of personal privilege.
    Ms. Eshoo. Well, thank you, Mr. Chairman. I appreciate it.
    We know that the age levels vary with the wonderful 
staffers that work with us, and there are two that have joined 
us here in the hearing room. They are my godsons, and if they 
would just stand up. This is Paul Voss and this is Thomas Voss. 
And so they want to learn about what we do here. So look at 
people waving to you. Isn't that great? So we welcome you. Who 
knows--yes, hi, guys. Yes. Maybe someday they will either be at 
that table or this one.
    Thank you very much, Mr. Chairman.
    Mr. Latta. Well, thank you very much.
    And with that, and seeing no other Members to ask questions 
this afternoon, on behalf of the subcommittee chairman, the 
gentleman from Oregon, the ranking member, the gentlelady from 
California, and myself, I would like to thank this panel for 
your excellent presentation this morning. We really appreciate 
your time.
    And if there are no other issues to come before the 
committee, we stand adjourned.
    [Whereupon, at 12:16 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
